<html>
<title> - ONDCP REAUTHORIZATION AND THE NATIONAL DRUG CONTROL STRATEGY FOR 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 ONDCP REAUTHORIZATION AND THE NATIONAL DRUG CONTROL STRATEGY FOR 2003

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 5, 2003

                               __________

                           Serial No. 108-15

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

87-417 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
              Randy Kaplan, Senior Counsel/Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Christopher Donesa, Staff Director
             Nicholas P. Coleman, Professional Staff Member
                         Nicole Garrett, Clerk
                  Julian A. Haywood, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 5, 2003....................................     1
Statement of:
    Walters, John, Director, Office of National Drug Control 
      Policy.....................................................     7
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    77
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    41
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    48
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Walters, John, Director, Office of National Drug Control 
      Policy, prepared statement of..............................    13

 ONDCP REAUTHORIZATION AND THE NATIONAL DRUG CONTROL STRATEGY FOR 2003

                              ----------                              


                        WEDNESDAY, MARCH 5, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:08 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Mrs. Davis of Virginia, 
Norton, Deal, Cummings, Mr. Davis of Illinois, Bell, and 
Ruppersberger.
    Staff present: Christopher A. Donesa, staff director and 
chief counsel; Nicholas P. Coleman, professional staff member 
and counsel; John Stanton, congressional fellow; Nicole 
Garrett, clerk; and Julian A. Haywood, minority counsel.
    Mr. Souder. Good afternoon and welcome to the first in a 
series of hearings on the reauthorization of the Office of 
National Drug Control Strategy and its programs, which will be 
the primary legislative focus for this subcommittee during this 
Congress.
    We will also have the opportunity to discuss the wide range 
of drug policy issues with Director Walters today, as we review 
the National Drug Control Strategy for 2003.
    ONDCP was created in 1988, and vested with the broad 
authority within the executive branch to coordinate national 
drug control policy and budgets for the Federal drug control 
agencies.
    Although it is still a relatively young office, I believe 
that ONDCP has generally been a highly successful institute to 
keep the Nation's focus and resources on the critical priority 
of reducing drug use in America.
    It is an indication of its success that the primary issues 
surrounding the legislation is not whether to reauthorize 
ONDCP, but how best to do so.
    The many positive signs and trends that Director Walters 
reported in this year's national strategy, after the downturn 
during the previous administration, clearly demonstrate the 
difference that the office can make when strong and effective 
leadership combines with some policy.
    Today's hearing will be an opportunity for the subcommittee 
to discuss broad issues relating to ONDCP directly with 
Director Walters in advance of the reauthorization.
    In the coming weeks, the subcommittee will also hold a 
continuing series of hearings on individual programs to be 
covered in the reauthorization, including the High Intensity 
Drug Trafficking Areas [HIDTA] Program, the media campaign and 
other initiatives.
    We will also consider the proposal by the ranking member, 
Mr. Cummings, to address the problem of witness intimidation 
and other issues of interest to members of the subcommittee.
    We hope to be able to finish building a record in the 
subcommittee, and to consider legislation to forward to 
Chairman Davis and the full committee relatively early this 
Spring.
    As we move toward reauthorization, I intend to follow a few 
basic principles in restructuring the bill. I enthusiastically 
support reauthorizing ONDCP, and want to ensure that Director 
Walters and future Directors continue to have strong tools at 
their disposal to develop and implement an effective drug 
policy.
    We will consider refinements as well as whether it may be 
possible to streamline or eliminate a number of the current 
statutory requirements on the office. I also strongly support 
reauthorizing the individual programs within ONDCP, although 
clearly several issues will need to be worked through and some 
reforms will be necessary to ensure effective and responsive 
programs.
    The HIDTA Program is an important tool to facilitate 
partnerships between the Federal Government and State and local 
law enforcement. It is also apparent, however, that HIDTA has 
reached far beyond its intended focus on national drug 
trafficking. We will need to consider how best to streamline 
and increase accountability within the HIDTA Program.
    Any reauthorization bill must also contain provisions to 
renew the media campaign, which I believe continues to be one 
of our most important national prevention programs. In doing 
so, however, we must ensure that the program continues to 
pursue its primary goal of supporting the purchase of air time 
for effective prevention advertising.
    We must also ensure that the Director has appropriate 
flexibility to shape messages consistent with the national 
strategy, and that past contractor fraud problems will never be 
permitted to reoccur.
    I very much look forward to working with Director Walters 
and my colleagues on the subcommittee and full committee on 
this legislation, as well as with other Members of Congress and 
the public, who have expressed an interest and worked with us 
on these important issues in the past.
    Today we also will be considering a National Drug Control 
Strategy that provides substantial cause for optimism that we 
are beginning to make real progress in controlling drug abuse.
    There are clear signs that our domestic and international 
strategies are working. We have tangible first steps toward 
meeting the President's goal of reducing drug use among youth.
    As Director Walters announced last week, we are beginning 
to see reductions in coca cultivation in Colombia. We have 
witnessed the defeat of so-called ``medical'' marijuana 
initiatives in several States.
    Last week, we discussed the President's new initiative to 
significantly increase the availability of drug treatment in 
the United States.
    These are just a few of many strong signs of progress, and 
I want to commend Director Walters for his leadership on all of 
these issues and others that I have not mentioned but will be 
discussed today.
    However, significant challenges remain in virtually every 
arena. The difficult balance with homeland security continues 
to challenge our law enforcement and interdiction efforts.
    We are seeing more tangible signs than ever of links 
between the drug trade and international terrorism. The 
proliferation of drugs such as ecstasy, methamphetamines, and 
high potency ``BC Bud'' continues across our country.
    The drug legalization movement continues to spread 
fundamental mistruths that harm our children and our culture, 
and despite the encouraging signs of progress, too many 
Americans and their families and communities continue to suffer 
from the scourge of addiction.
    I look forward to the opportunity to discuss our progress 
and how best to meet these challenges today with Director 
Walters and with the subcommittee.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] T7417.001
    
    [GRAPHIC] [TIFF OMITTED] T7417.002
    
    [GRAPHIC] [TIFF OMITTED] T7417.003
    
    Mr. Souder. Ms. Davis, do you have any opening statement?
    Mrs. Davis of Virginia. No statement, Mr. Chairman, thank 
you.
    Mr. Souder. Mr. Cummings is running a little bit behind. He 
will be here shortly, and we will permit him to do an opening 
statement at that time.
    Before proceeding, I would like to ask unanimous consent 
that all Members have 5 legislative days to submit written 
statements and questions for the hearing record, and that any 
answers to written questions provided by the witnesses also be 
included in the record. Without objection, it is so ordered.
    I also would ask unanimous consent that all exhibits, 
documents, and other materials referred to by Members and the 
witnesses may be included in the hearing record, and that all 
Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    Will you rise, Director Walters? As you know, we do this as 
a standard in our oversight committee.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness has 
answered in the affirmative.
    Well, thank you for continuing to cycle between the 
different committees and making statements on the Hill. 
Hopefully, you have time to actually work on the issue of drug 
abuse, in addition to talking to us. But this is an important 
process as to how we best deal with the reauthorization in your 
office, and I am looking forward to hearing your testimony.

 STATEMENT OF JOHN WALTERS, DIRECTOR, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

    Mr. Walters. Thank you, Mr. Chairman, it is a pleasure to 
be back with you. There is no group of people that we have 
worked with, since I took office a little over a year ago, than 
you and Mr. Cummings and some of the members of this committee 
that have been more supportive and more interested and more 
willing to help us in this effort.
    You and I have traveled internationally, as well as 
discussed our programs and the policy challenges at length. So 
I will express my gratitude to you and members of this 
committee. I appreciate this opportunity to talk about the 
strategy, and to begin the conversation that will hopefully 
result in the reauthorization of ONDCP early in the year.
    With your permission, I would like to ask that my written 
statement be included in the record, and I will just summarize 
some of these points, and then I will be happy to be guided by 
your question and the questions from the committee.
    A little over 1 year ago, the President announced the first 
Drug Control Strategy for this administration. It began with 
the ambitious goal of reducing drug use by 10 percent in 2 
years for young people and adults, and 25 percent in 5 years.
    We noted the troubling signs that we were not on the path 
at that time, and while these were ambitious goals, we thought 
they focused, one, on accountability; two, on the fact that 
drug use was the measure we thought was most important for the 
public and for leaders to focus on; and three, while these 
goals were ambitious, they were rates of decline that we saw in 
the latter part of the eighties and early nineties. So we 
should expect of ourselves the kinds of things that we actually 
had done before.
    We are pleased to announce with this strategy that there is 
initial progress, and some of what we have done as a Nation has 
moved us in the right direction; and that what we have proposed 
in this strategy is an effort to follow through and expand on 
what we learned over the last year.
    Specifically, the good news is that drug use by young 
people appears to be declining. Teen drug use is headed in the 
right direction, down. Last December, the monitoring the future 
survey, a survey that has been done for over 28 years now 
showed that use of any illicit drug in the past year decreased 
by a statistically significant margin, from 2001 to 2002 among 
8th and 10th graders.
    The percentages for 8th and 10th grade decline in illicit 
drug use were at their lowest level since 1993 and 1995, 
respectively.
    In addition, as you pointed out, last week we released 
figures showing that for the first time, we have been able to 
reduce significantly 15 percent of the cultivation of coca in 
Colombia.
    This ambitious program, which has been a source of a lot of 
effort by many people, and more specifically by the new 
President of Colombia and his administration, President Rebay, 
has resulted in a movement from growth, as you see in the chart 
to my left, to a decline. We need to follow through.
    We have created what we said we wanted to create in the 
first drug strategy, a recession in a key business that is part 
of the drug market. We want to maintain that recession, and we 
want to drive it to levels of depression, if we possibly can.
    The National Drug Strategy that we released at the 
beginning of this year proposed a budget of $11.7 billion for 
drug control programs in fiscal year 2004.
    It centers again around three core priorities in our effort 
to re-establish balance, which we think is critical to making 
progress: first, stopping drug use before it starts; second, 
healing America's drug users; and third, disrupting the market, 
that is, the drug business in this country and throughout the 
world.
    I will just touch on each of these briefly, and how we have 
tried to extend them and maintain them in this, and then 
conclude.
    Reducing drug use or stopping drug use before it starts has 
been, since we have been dealing with this problem, a hallmark 
of where everybody wants to begin. We know that if we prevent 
young people throughout their teenage years from beginning use, 
they are unlikely to go on and have a problem later on.
    This is a problem. We can inoculate future generations. We 
can change the trajectory of the problem for the future, but we 
have to do a better job of stopping teenagers from being 
exposed to drugs, alcohol, and tobacco, for that matter.
    We have tried to bolster the efforts of homes, communities, 
schools, places of worship, and community institutions by what 
we do at the Federal level, as a primary way of supporting 
prevention.
    Our strategy ties national leadership hopefully in more 
directly with community leadership, through things like the 
Community Coalition Program, our media campaign that sends 
messages both to young people and to parents, and sets 
hopefully a conversation about the realities of drug use and 
the priorities for prevention that will support what 
communities and individuals are doing throughout our country.
    We have also asked for $5 million for this year for the new 
Parent Drug Corps, as a way of helping to foster the 
understanding that parents have about what they can do and what 
works in this field.
    In addition, the administration is requesting $8 million in 
fiscal year 2004 for student drug testing, brief interventions 
that can stop the spread of this disease. In addition to 
prevention, we know that the way the disease of addiction is 
spread is by non-addictive users, and for young people, that 
means a peer.
    The way drug use starts is what I call the lie. It is a 
peer saying, ``It is fun. You can handle it.'' And for too many 
young people, they do not realize the lie is what it is until 
it is too late.
    In addition to prevention, we have to be willing to 
intervene with those who are the carriers. That means more 
directly having people see the signs of drug use, and to have 
brief interventions, that we know from our research work, 
applied effectively in the field, in schools and communities 
and families, in physicians' offices, as well as other 
institutions of society.
    Our second priority, healing America's drug users, bridges 
this intervention to the treatment part of the continuum. We 
know that while 16 million Americans still use drugs--too many, 
as you said, Mr. Chairman--6 million meet the clinical 
criteria, such as, they need drug treatment for their abuse or 
dependency.
    We have sought to not only continue to support the drug 
treatment infrastructure in this country, but to try to provide 
an initiative that will improve its reach and effectiveness, we 
think, dramatically.
    That was the subject of your hearing last week. I will not 
go into great detail, but we are asking for a total of $3.6 
billion for drug treatment, an increase of 8.2 percent over 
2003.
    That includes the money, the $600 million over 3 years, 
that the President requested to expand treatment in the form of 
program vouchers, which would allow us to contact people at the 
point where they are diagnosed to have a need for treatment, 
and provide them a referral and the resources to reimburse the 
service providers for the treatment they receive.
    We think it offers greater access. We hope it will increase 
the number of providers, and it provides more choice and 
accountability in the system. So we get more people, better 
treatment, and more treatment that is effective in the system. 
Again, we discussed this at length. I will be happy to go over 
any additional issues you want today, as well.
    Third, we are, as I said, focusing on disrupting the 
market. The drug market, or the drug problem is frequently 
described as a market problem by individuals who comment on it 
at all levels of specialization.
    I am always struck at how few of them actually talk about 
that in a thorough-going way. They usually say, it is a market, 
so they can focus on their one thing, and that ultimately they 
act as if they believe it is sufficient.
    We believe it is a market. We have to reduce demand and we 
have to reduce supply, and that if you do not reduce supply and 
demand, successes in one area will be undermined by the very 
market phenomenon that is the drug trade.
    We intend to drive down demand, but we also know we have to 
reduce the supply of drugs. Otherwise, if we drive just on 
demand, we will have cheaper, more potent, more plentiful drugs 
that will undermine our efforts.
    It is the same way if we just drive down supply. We have 
more dollars chasing fewer drugs, which stimulates production 
and distribution.
    What that means is, we have tried to reconfigure what we do 
internationally and domestically against the markets to better 
understand them as markets. In short, we want to do what most 
business people come to you and say, they are afraid what the 
Government is going to do and want you to stop; that is, use 
the regulatory or criminal powers of the Federal Government to 
cause their business to have profitability problems and to 
ultimately be in recession or be out of business.
    We have tended not to do that kind of comprehensive 
thinking in this field, and we have been working with the 
Justice Department, as well as our National Security Agencies, 
to begin to understand and apply and analyze our programs in 
these terms. That is why the decline in cultivation of coca is 
crucial, but it is not the only thing we are doing.
    In the current environment, we are also working with 
countries abroad, and let me start there, to try to break the 
market in crucial areas of vulnerability. Part of that involves 
key leaders. Part of that involves transportation. Part of that 
involves money flows, as well as the internal processes needed 
to produce and ship these drugs.
    In addition what is being done in cultivation in Colombia, 
of course, we are working on enforcement, as well as 
interdiction. We are joining our efforts to attack the business 
at various key points, from outside our country where that 
exists, to our streets and towns through leadership of these 
programs.
    Some of them are more advanced than others, but we intend 
to drive these into the process throughout the market that is 
the drug trade. The strategy lays out some of the background to 
that in detail, and what has been happening as a result of our 
analysis over the last year.
    We have both more urgency and more resources in the current 
environment to do this; more urgency because I think there is a 
wider understanding that a major source of de-stabilizing force 
in the hemisphere, and the consequences of de-stabilizing 
forces is more acutely a concern in this time of the war on 
terror, and more of that comes from the drug trade, essentially 
since the end of the cold war, frictions between ourselves and 
the old cold war adversaries have diminished their capacity to 
fund or support de-stabilizing forces.
    So most of this money is now coming, yes, from some States 
that are sponsoring terrorism, but also from international 
crime. Drugs are a big, big part of it. As we look at the 
future, we expect that as we make progress against State 
sponsorship, we will face more organizations who we are now 
painfully aware can use small amounts of money and small 
operations to cause potentially devastating harm that will seek 
to use crime, and drugs in particular.
    We are also seeing more instances of cases where 
organizations are being used, as you have mentioned in your 
opening remarks, for services: guns, money, movement, and we 
have to anticipate that will continue or will even become 
greater, as people move to provide outlets for those who would 
harm this country.
    We have asked to continue the programs that have been in 
place in Latin America, as well as our budget which includes 
money to continue drug interdiction. The measures that we are 
taking at our border in connection with homeland security, as 
you mentioned, give us a unique opportunity to begin to provide 
a better way, targeted with intelligence, of controlling 
dangerous substances in individuals that would move across our 
borders, while fostering illicit trade in the movement of 
people who are here to carry out legal and legitimate 
activities.
    Our goal, in short, is to use also the unprecedented 
opportunities that we have with Colombia and Mexico and the 
leaders there, to make progress in those two key countries for 
the drug problem in this country, as well as to link, as I 
said, those operations to what we do with domestic enforcement.
    We have had a number of gains as a result of what has been 
put in place, but we want to provide ourselves and you, as 
those who oversee and fund these programs, a better way of 
quantifying the way in which we are making the problem smaller, 
because that is our goal.
    Let me just say a couple of words about reauthorization, 
and then I will take your questions. As you mentioned the 
Office of National Drug Control Policy was originally created 
in 1988. In my past history, I was actually at the office when 
it was initially started during the President's father's 
administration.
    It is not a department because of the far flung 
responsibilities that we need to bring together that would not 
easily be pulled out of agencies and put into a single 
department.
    A large amount of what we have to do in terms of organizing 
not only policy but activity is tied to our budget 
certification authorities. We have tried to use those in a way 
that both consult widely with people, Congress, outside of 
Congress, and the Federal agencies, but also try to balance the 
resources that we put into this program. We have made some 
changes to the budget in order to focus our efforts more 
directly.
    In addition, as you know, ONDCP administers approximately 
half a billion dollars in programs, including the High 
Intensity Drug Trafficking Area Program, the Drug Free 
Communities Grant Program, the Youth Anti-Drug Media Campaign, 
and the Counter Drug Technology Assessment Center.
    These are large responsibilities, large amounts of money, 
and we try to make sure that we have maintained quality and 
improved these programs in the process of looking at them, 
particularly with regard to reauthorization, as well as the 
requests in the current budget.
    Let me just say one word about the media campaign. When I 
took over, there was a considerable concern about the 
effectiveness of the media campaign.
    What we have tried to do is have more direct involvement to 
assure ourselves and be able to assure you and others, the 
American people, among others, that this was something that 
works.
    I do not think there is any question in our country that 
advertising works. We do not spend millions of millions of 
dollars, and frankly, none of you would spend a lot of money in 
your work in advertising if it did not work.
    The question is, how do we get it to work in this area to 
effectively reduce a fundamental health problem and a problem 
for the American people?
    We have had more direct involvement. I directed that there 
be testing of advertising content before it went on the air, so 
that we were sure it had a powerful effect.
    We have re-focused the target audience from kind of sub-
teens or so-called ``tweens'' into middle teenagers and older 
teenagers, so we could have a more powerful message that was 
appropriate for that audience.
    In addition, for the youth part of the campaign, we have 
folks in the last year, as you probably have seen, on 
marijuana. That has been the single greatest area of ignorance 
that we found, under-appreciation of both the dangers and the 
scope of the problem that marijuana poses to young people, and 
we have tried to push back against that.
    The principal non-profit partner that my office has had is 
the Partnership for Drug Free America, of course. They have had 
a new chairman, Roy Bostock, who I have a good relationship 
with. We have been working together and, in fact, I just saw 
him in the week to talk about some of the content and movement 
in the campaign.
    So I think we are on the right track. We will begin to see 
some of the results and, frankly, I think we have already begun 
to see some of the results in the decline that you saw from the 
survey that was taken last Spring, but we have to follow 
through.
    I guess in conclusion, I would say that we are obviously 
encouraged by the progress. We are aware that we are a minor 
partner in a lot of what goes on here.
    National leadership is important. That is why what you do 
with regard to the structure of the office and the budgets the 
authorities are obviously crucial to what we are able to do.
    But we are also aware that the people who actually prevent 
and treat and make our communities safer and work even abroad 
are not us. They are citizens and some of them are foreign 
citizens, and we are trying to make sure that we provide the 
appropriate support in an environment where there are a lot of 
things going on.
    But we certainly are pleased with what has happened so far, 
and I want to thank you for this opportunity to discuss our 
programs and the work of our office.
    [The prepared statement of Mr. Walters follows:]
    [GRAPHIC] [TIFF OMITTED] T7417.004
    
    [GRAPHIC] [TIFF OMITTED] T7417.005
    
    [GRAPHIC] [TIFF OMITTED] T7417.006
    
    [GRAPHIC] [TIFF OMITTED] T7417.007
    
    [GRAPHIC] [TIFF OMITTED] T7417.008
    
    [GRAPHIC] [TIFF OMITTED] T7417.009
    
    [GRAPHIC] [TIFF OMITTED] T7417.010
    
    [GRAPHIC] [TIFF OMITTED] T7417.011
    
    [GRAPHIC] [TIFF OMITTED] T7417.012
    
    [GRAPHIC] [TIFF OMITTED] T7417.013
    
    [GRAPHIC] [TIFF OMITTED] T7417.014
    
    [GRAPHIC] [TIFF OMITTED] T7417.015
    
    [GRAPHIC] [TIFF OMITTED] T7417.016
    
    [GRAPHIC] [TIFF OMITTED] T7417.017
    
    [GRAPHIC] [TIFF OMITTED] T7417.018
    
    [GRAPHIC] [TIFF OMITTED] T7417.019
    
    [GRAPHIC] [TIFF OMITTED] T7417.020
    
    Mr. Souder. Thank you, we have been joined by the committee 
vice chairman, Nathan Deal of Georgia, and also Delegate 
Eleanor Holmes Norton. Do you have any opening comments you 
want to make?
    Ms. Norton. No, thank you, Mr. Chairman.
    Mr. Souder. I will move ahead to some questions. You 
mentioned the new Parent Drug Corps and the student drug 
testing. Do you see those being directly responsive to your 
office in the sense of you having direct control, or would they 
move through other agencies where you would have indirect 
influence control?
    Mr. Walters. Yes, they would be housed in other agencies. 
The Drug Testing Initiative is a part of the larger Safe and 
Drug-Free Schools Program, run by the Department of Education. 
The Drug Corps would again be under the Corporation for 
National Service.
    Mr. Souder. When you work with these different agencies, 
could you describe to the committee whether the concept here 
was to give you a lot of ability to persuade in this initial 
office, but not a lot of power to compel? Can you describe a 
little bit how that works?
    Mr. Walters. Yes, this is a bit of an awkward structure. 
But in some ways, I think sometimes people talk about the 
awkwardness and exaggerate it.
    No agency of the Government has independent authority. That 
is what checks and balances is about. And in this day and age, 
we have had more of a working relationship with Congress and 
with oversight and appropriations committees more than I think 
ever before in our history.
    And we have to be accountable to the various parties. In my 
business, as I say, the reason there is not a Department of 
Drug Control, I believe, and there cannot be, is because if you 
are going to really deal with the major programs that you have 
to do to have a balanced program or an effective program, you 
cannot pull them out of all of the relevant agencies. You 
cannot pull a part of the Department of Defense or a part of 
the Department of Justice or part of the Department of HHS or 
Education and put them all in one place.
    So what we have tried to do in these cases is have the 
ability to look at what the problem is and where we can have an 
effect; what programs can be structured or are structured; how 
they are working; and then make a case for the resources and 
the policies that we need.
    We do not win every battle. You know that as well as I do. 
But what my office is charged to do is, it is the single place, 
and the reason I think it exists it is charged with, you are 
supposed to make a difference. You are supposed to make all the 
individual programs not just be programs that show program 
outcomes, but that drive down drug use. That's why we accepted 
this in our own statement of goals.
    We understand that is sometimes difficult, that there are 
competing priorities, that many times the department heads that 
we have to work with are sometimes resistant, not because they 
do not believe in drug control, but because they know that the 
resources or attention are being pulled from other programs 
that they also have responsibility for.
    But to make sure that drug control is not the last thing 
that everybody looks at in this environment, my office is there 
to try to make sure that there is some unity, while the 
responsibilities are part of the Division of Labor.
    Mr. Souder. Do you believe that there are things that we 
should put in the legislation that would strengthen your 
ability to influence? Let me just give you some examples.
    This committee has oversight responsibilities over the 
Department of Education, as well as over your office. There are 
many of us who feel, and I just was on the Education Committee, 
where we went through Safe and Drug-Free Schools 
reauthorization, which was an incredibly frustrating process.
    That program has been deluded, and currently its 
effectiveness results are questionable. Merely because it has 
been diluted, different schools are doing different programs. 
The President is frustrated, the Drug Czar is frustrated, and 
even the Department of Education, at times, is frustrated.
    Are there things that we could specify? What is the best 
way to try to address that? Should it be moved out of the 
Department of Education? Are there reporting requirements that 
would have an accountability?
    One that would even be more potentially controversial, and 
shows the difficulty, is the International Narcotics Program 
under the Department of State. What happens when you feel it 
should go one direction and the State Department another, but 
you are being held accountable for the drug reductions in the 
United States and the State Department is not?
    Mr. Walters. That is a lot of questions. Let me see if I 
can try to answer them in some sort of aggregate way in the 
specifics.
    Ultimately, the authority of my office depends on the 
President. If the President selects and directs, through his 
senior staff as well as himself, that we are going to do this 
and we are going to do this in an effective way, that helps. 
Without that or a signal that it is not going to be serious, it 
undermines whatever we can do.
    The President has been fully supportive. It is a busy time, 
but he released the first drug control strategy. He has been 
very powerful in his support when we needed it. But also, he 
has people working on this, because he has other things he 
needs to do. So it is important that we do our job.
    I have found, and I have been now in two administrations as 
I said in this office, that there also are some pretty 
dedicated and serious people in other parts of the executive 
branch, as well as in Congress, on this issue.
    We have a lot more history about drug programs, as a result 
of the last 10 years or 25 years, with this problem in the 
country; and people have some ideas of what works and does not 
work, and they have pretty sophisticated understandings.
    I also think it is important, as you know, to understand 
that because we have a division of labor in the Government, it 
is not just important to order people. You have to persuade 
them that what you want to do is something that they want to do 
as well, and most people are of goodwill.
    But the Government has many ways for people who do not want 
to do what they are ordered to do, to avoid doing it. And since 
a lot of our grant programs are also directed to provide 
resources to other people, if they do not want to do the right 
thing, the resources are not going to make the result.
    So it makes it more complex, but I also think it is just in 
keeping with the way a free country, especially the way the 
United States, works today.
    So I am not so much concerned about specific authorities, 
and I actually do not think it would be easier or I do not 
think it would be feasible to say, well, you know, in all 
cases, whatever we say trumps whatever the department says or 
whatever OMB says or whatever anybody else says. It is just 
like what we say trumping whatever the appropriators say is not 
going to fly.
    So the real key here is our ability to provide 
accountability measures to show what is working and what is 
not. For some of these programs, where we try to provide 
flexibility, as you know, it is hard, because either the 
measures that would be realistic are very costly to measure in 
overtime, or the contribution that we are making is a minor 
contribution.
    So how do you tell that our contribution is making the 
difference? You really are becoming a smaller shareholder in a 
larger enterprise.
    I think the Safe and Drug-Free Schools that you brought up 
is a good example. Yes, I think the program is too diluted. We 
think through a drill with OMB. We are not happy with what the 
program shows and does.
    A lot of things have been given to the Safe and Drug-Free 
Schools to do, so we cannot entirely say that it is just not 
doing what it should be doing about drug control effectively.
    It is also being told to do a lot of safety things and a 
lot of other things. So we are trying to provide evidence of 
what programs work, where we deploy resources, and how they can 
be effective.
    We are trying to do this in a number of ways, and not just 
by Government regulation, which can be cumbersome from 
Washington, as you know. But we are trying to have communities 
be knowledgeable and insist that their schools do what is 
necessary; that they know what the problem is, that they do not 
look the other way, that they use tools that are effective.
    The biggest change that we have made this time in that 
regard, that I think is very important, is the proposal for 
drug testing. It is only an $8 million request within the Safe 
and Drug-Free Schools Program.
    But as you know, opposition to drug testing in this country 
has said that it is too punitive; that you are going to find 
kids that already have a problem and you are going to throw 
them out of school and make their problems worse. That is not 
the reality of drug testing today.
    The reality of drug testing is that of the roughly 6 
million people that we have to treat for dependency or abuse, 
23 percent are teenagers. We have not had estimates that high 
and the population being that young. These kids are, in many 
cases, in schools. They are seeing pediatricians and general 
practitioners. They are in community institutions from their 
faith communities to sports leagues. Some of them are coming 
into the criminal justice system.
    Drug testing allow us to identify them early, and we know 
from all the research that the earlier we intervene with young 
people, or even adults that have problems, the better the 
prognosis.
    Drug testing is a way to confidentially to get parents and 
kids over the denial that is associated with drug using and 
drug dependency and get them help. So to make our treatment 
programs work, as well as to make our prevention/ intervention 
programs work, we need these types of tools.
    Now we are asking a small amount, because we want to do 
demonstrations and show people the value and ask them, if you 
have the resources here, if you have problems that are 
overwhelming your schools, this is a tool that will make a 
difference and get more people to create the consensus that has 
to be in the school community, in the adult community, and 
around schools, to make these work effectively. But that is one 
example.
    Mr. Souder. We have unfortunately three votes, which I do 
believe are the last votes of the day. So if you can stay for a 
little bit, there are a number of questions that we want to get 
into the record, and the other Members most likely have 
questions, as well.
    With that, the hearing is in recess.
    [Recess.]
    Mr. Souder. We will call the committee back to order.
    I would like to go through some of the general categories 
in the reauthorization, and make sure we get some of these 
basic questions in the record. As you know, we will be doing 
additional hearings, as well.
    You alluded to, and I did in my opening statement, the 
homeland security. Are there any specific recommendations you 
may have to us on this legislation, as to the inter-
relationships with your office, with homeland security?
    We have discussed a number of information things, and you 
have made a powerful case of persuasion. It is an unusual case, 
because we have the Coast Guard, we have the Border Patrol, we 
have Customs, INS, all being put into kind of super agency 
here. All those agencies are critical here, particularly as we 
look at the borders where most of our trafficking occurs.
    How do you see that inter-relationship evolving, and is 
there anything in particular that you would like to discuss?
    Mr. Walters. I do not see any immediate difficulties. As 
you know, we are working to handle the issue of the U.S. 
Interdiction Coordinator and the Drug Policy Coordination 
position that you have been so involved in, in regard to the 
new department and the staffing of that position.
    The administration has not yet made an announcement of 
that. But we are pretty far along in a way that I think will 
allow my office and Secretary Ridge to work about as closely at 
this point as I can see us being able to do so.
    So they have been very cooperative. Of course, there are a 
lot of moving parts here. Our concern is that we don't let 
things fall from the current standard as we build to what we 
hope will be a more effective border security, as well as 
homeland security system.
    The challenges that we face that we are still working 
through that we will have to discuss with you and your 
colleagues up here is how do we use what we all know, 
particularly which has been brought to salience in regard to 
terror, in intelligence.
    We want to use better intelligence in regards to drug 
control. We want to use better intelligence in regard to 
terror, because it is really is a ``needle in the haystack'' 
challenge. We will do a certain amount of things to ``harden 
the target,'' as they say, but ultimately we have to find those 
who are threats through sharing of information.
    We are going to try to use, and I have been talking to 
Secretary Ridge about using what we have learned in some of the 
task forces, including the HIDTA Program, that we can maybe 
begin to build on. But we will keep you and your colleagues 
informed as we go in that direction.
    I think that is one of the immediate issues, as well as 
just making sure that the agencies that are being brought 
together; that turmoil that inevitably evolves at the beginning 
maintain coherence. Secretary Ridge has been very adamant and 
forthright about that.
    And also, we have people who know what these requirements 
are: Asa Hutchinson, Rob Bonner, and others who have done this 
job. So we are not starting out with a cast of people who are 
going to learn the job in the first couple of months. They know 
what we are doing.
    Mr. Souder. Not to raise any specters that might frighten 
me, and maybe some of my colleagues on the other side would not 
be as frightened, but part of the problem with a 5-year 
reauthorization, you have to think, well, what if the 
administration changed, and the particular individual, such as 
yourself, and the individuals in Homeland Security, are 
different individuals? Are there things that we need to 
institutionally build in?
    In the Homeland Security Subcommittee, there is one 
subcommittee on border security. Their specific assignment 
includes narcotics, which was a step in the right direction of 
getting a person designated there.
    Because what I see are potentials. Even where we have been 
able to intercept more people bringing narcotics in, the thrust 
is that some of that equipment, depending on the design 
equipment and the densities that they are looking for, what 
your people at the airport are looking for, what your people at 
the border are looking for, sometimes it is a zero sum game, 
when they are looking for one game with the equipment.
    If you have a dog that is trained to sniff for gun powder, 
as opposed to narcotics, and that is what you have at a given 
border site, you are not going to find the narcotics.
    Those are the kind of things that I want to make sure do 
not get lost in the process. Because most of the agencies that 
will be doing most of the intercept, particularly along the 
border, are no longer independent. They have a different 
primary mission than homeland security.
    Mr. Walters. Well, I agree. We have already done this, and 
I think we have made small improvements in just the transition 
that has happened so far.
    I was in Cleveland visiting the HIDTA Program there, and 
met with the gentleman who just took over the Cleveland Airport 
for TSA at that point. He reported that when the Federal 
Government took over from the private contractor that he found 
the previous practice was that if you found drugs or bulk 
shipments of cash, you just made sure people did not miss their 
flights. Because if it was not or a bomb, that was all they 
were supposed to stop.
    Well, they immediately changed that practice. We checked 
and there had been reports of some of the other contractors 
having a kind of laxness on this issue. The new agency has 
changed that, and as we begin to provide greater search 
capacity with checked luggage, we are trying to make sure that 
those referrals are here, too.
    It is kind of silly to allow criminal activity to go on 
right before people's eyes, and that is not happening. Now 
there may be accidents, but now at least we have a consistent 
policy here.
    So we need to maintain that on the border, but we also 
need, as you noted, to tie people together better. I think that 
is a management challenge for us, as you know.
    I recognize that institutions have to be populated by 
individuals, and sometimes they are strong and sometimes they 
are weak, and sometimes they are allowed to be strong or weak.
    My office has been one of those where there have been 
criticisms of people who held my job in the past, because of 
their weakness or perceived inability to do the job.
    I still think the office is needed, and the administration 
does. You know, when you have somebody who is weak in other 
Cabinet positions, you do not say, well, we do not do that any 
more and we are going to kill the office.
    However, there has to be accountability. That is what 
oversight is about. Your job is to make sure that you put 
pressure on us when we do not have people that are competent, 
if the administration is not doing that.
    I think the President and I were pretty direct about this, 
and I have no doubt about the accountability that he will 
expect and apply in my case.
    But the real challenge here is to leave institutions that 
give people the tools, when they are competent, to do the job. 
At this point, I do not see that in the current configuration 
in the office as a problem.
    I do think that with a new agency like Homeland Security, 
you are going to look at how it unfolds. A lot of this is new 
in those relationships, and we should inform you of what is 
going on, and we should also collect information that allows us 
to manage.
    As I said, the problem in too many areas of drug control, 
in my opinion, and it is not only drug control but other areas 
of government, is we do not ask questions that you would have 
to ask if you were going to manage it in a way that you 
expected to reduce the problem.
    When we ask questions like what are you doing, we want you 
to do some good things. We want you to kind of cope with the 
problem.
    The President and I want to make this problem smaller. So 
when we run programs, that is why it is frustrating to hear 
things like the Safe and Drug-Free Schools. It is a lot of 
money.
    Now when it gets down to individual schools, it is not. But 
it should be making more of a difference and we want it applied 
more aggressively.
    Mr. Souder. Mr. Deal, do you have some questions?
    Mr. Deal. Thank you, Mr. Chairman.
    Mr. Director, it is nice to have you here and it was good 
to hear your testimony.
    As you had indicated, dealing with drugs is a multi-faceted 
issue. In my Congressional District, even though it is a non-
border State, the drug issue is inter-twined with the issue of 
illegal immigration.
    My area apparently has become one of the major 
distributionsites for drugs moving up the East Coast. It is 
true on both sides of my district, which literally runs from 
border to border across the State.
    I have been made aware of some real problems that we are 
dealing with in prosecuting those who would come into our 
country illegally and be involved in the drug trafficking.
    There again, it is a multi-faceted issue. I have today, of 
course, met with some representatives of the Department of 
Justice, with a new issue that has now presented itself, and 
that is the problem of extradition back from Mexico.
    Mexico has taken a much more restricted posture, as a 
result of one of their Supreme Court decisions, which not only 
our treaty did not allow us to expedite under capital offenses, 
but now they have interpreted under their constitution that a 
crime that would possibly carry a life sentence, even though 
that life sentence could be commuted or paroled, would be cruel 
and unusual punishment.
    That means that many of the drug cases, if they are able to 
get back across the border, we have no effective way of 
bringing them to prosecution.
    That is in stark contrast to the attitude that we have seen 
in Colombia with regard to their willingness to extradite, and 
that being the mechanism whereby they think it is an effective 
tool for dealing with their own internal problems within their 
country.
    That is an issue that I think we all have to be concerned 
with, and it is going to require a lot of diplomatic pressure 
perhaps to be brought against Mexico. Would you care to comment 
about that, or the illegal immigration issue, as it relates to 
drug trafficking?
    Mr. Walters. Sure, I have met probably on five or six 
occasions with the Mexican Attorney General, since I took 
office a little over a year ago, both here and in Mexico City.
    He and some of his colleagues have been working diligently 
on trying to find ways of not letting the border be used as a 
shield for drug trafficking, in particular.
    We are not where we want to be, yet. But we have worked the 
issue of assurances through diplomatic notes, which was problem 
before. We recently, although these things have to be kept on 
top of, have found a way, we think, to satisfy some of the 
courts there, and they are going to push this aggressively to 
allow people to be extradited.
    I think it is fair to note that there were 25 people 
extradited from Mexico last year, which is a record, and 17 the 
year before, even with these problems.
    Mr. Deal. That is about a 50/50 record though, is it not?
    Mr. Walters. Yes, well, and it is also fair to say that 
most of them waived their rights, so that is why they came.
    But we need to have a better understanding, I think, 
between our systems. We are offering to have some meetings 
between judicial officials here in the United States and those 
in Mexico, to better understand the two systems, with some of 
the prosecutors, as well as some of the law enforcement people.
    We would like to have, make no mistake, as smooth an 
extradition process as we have with Colombia. As you pointed 
out, the Colombian process is accelerating and they have been 
extraditing many people.
    We are not at that point, yet. But I do think that the 
Attorney General there understands this. He is trying to work 
within their system to make this. We want to keep pressure and 
attention on this so that we get follow through and we get 
process as rapidly as we can.
    The Fox administration has indicated its willingness to 
look at even issues of Constitutional amendment, if that is 
necessary, but that is a time consuming process in order to fix 
that.
    I think one of the things that we can do immediately, as I 
said, is get better understanding that this is not, you know, 
so much a kind of alien structure that is going to harm the 
rights or the sovereign responsibilities of other nations, and 
to have better cooperation.
    But there has been a lot of progress in Mexico. We had a 
little fall-off in regard to extradition that is serious, and 
we continue to try to work that, but we are not there, yet.
    Mr. Deal. Well, as you know, as a followup to that, with 
some of the minor drug offenses that are committed by illegal 
immigrants in the country, the option that the Court elects, 
instead of prosecution, which is expensive, and incarceration 
being costly, is that of deportation.
    But now we are finding that deportation is just a temporary 
issue, because they appear back across the border almost 
instantly and appear back in the same drug trafficking scheme.
    So the whole problem compounded itself, especially in areas 
like mine, where the number of cases is escalating 
immeasurably, and it is directly related to gang-type activity. 
Because the gangs are, almost in every case, linked in some way 
to the drug trafficking, itself.
    So it is a multi-faceted issue, and hopefully we can all 
work together to deal with as many of these parts of it as 
possibly can.
    Thank you, Mr. Chairman.
    Mr. Walters. I agree, and also I think this is an 
appropriate place to say that part of the basis for our urgency 
in the discussions with Mexico is the intelligence we have 
assembled that shows the extent to which Mexican organizations 
have become major managers of drug markets in the United 
States.
    This did not use to be the case, and I am not saying that 
it is Mexican nationals that are the sole problem in the United 
States. That is not true.
    But the extent of their control has spread as initially in 
the earlier part of the last decade. They took over 
distribution from some Colombian organizations, and as they 
have become more effective in distribution in some areas, it 
has become a major problem. Even if they do not control all the 
street distribution, they are the wholesalers to the street 
distribution system.
    So if we are going to go after this as a market, a key part 
of the structure of that market and some of the senior managers 
of both money and product are Mexican organizations. Many of 
them are Mexican nationals in Mexico.
    So we are working with the Mexican Government to go after 
those on their side, as well as to provide intelligence to 
allow us to execute enforcement pressure on our side of the 
border, and it has to improve.
    Mr. Deal. Thank you.
    Thank you, Mr. Chairman.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to apologize to the committee and to you, Director 
Walters. I had another hearing that I had to be in. Wednesday 
is a very rough day for us.
    Mr. Chairman, if I could give my opening statement and then 
some questions, just briefly.
    First of all, I want to thank you, Mr. Chairman, for 
holding this very important hearing today on the 
reauthorization of the Office of National Drug Control Policy 
and the 2003 National Drug Control Strategy.
    The Office of National Drug Control Policy was created in 
1988, and it since has been re-authorized twice, in 1994 and 
1998.
    Reauthorization serves the purpose of giving Congress an 
opportunity to review the progress of the war on drugs and the 
operations of what we often refer to as the Drug Czar's Office.
    ONDCP has the lead responsibility for establishing 
policies, priorities, and objectives for the Nation's Drug 
Control Program, with the goal of reducing the production, 
availability, and use of illegal drugs.
    By statute, the mission of the office is to: one, develop a 
National Drug Control Policy; two, coordinate and oversee the 
implementation of that policy; three, assess and certify the 
adequacy of the national drug control programs and budget for 
those programs; and four, evaluate the effectiveness of 
National Drug Control Programs.
    The Director of the National Drug Control Policy is, of 
course, not a czar in any real sense; but he nevertheless 
wields strong influence over the shape, direction, and 
implementation of our Nation's Drug Control Policy.
    The Director lacks the legal authority to direct agencies 
to carry out specific responsibilities, and does not have the 
authority to change the budgets or spending plans of national 
drug control agencies.
    However, the highly visible location of the office within 
the Executive Office of the President, its cross-agency 
jurisdiction, and its broad responsibilities for devising and 
coordinating policy and strategy give an important basis for 
support and coordination among the constitute national drug 
control agencies.
    Moreover, the Director's authority to review and certify 
agency drug control budgets may serve, in effect, as an 
informal veto power.
    The Director is served by a Deputy Director of National 
Drug Control Policy, as well as the Deputy Directors for Supply 
Reduction and Demand Reduction in State and local affairs.
    In addition to his policy work in ONDCP, he directly 
administers the High Intensity Drug Trafficking Areas [HIDTAs]; 
the National Youth Anti-Drug Media Campaign; the Counter-Drug 
Technology Assessment Center, and the Drug-Free Communities 
Program.
    This year's reauthorization of ONDCP will include the 
reauthorization of these important programs, with the exception 
of the Drug-Free Communities Program, which we re-authorized 
last year. We look forward to separate hearings to address 
these programs individually.
    ONDCD is required by statute to submit an annual National 
Control Strategy document to Congress. The strategy serves as a 
blueprint for the Federal drug control budget.
    Citing an upward trend in youth drug use, the 2002 strategy 
set forth the President's goals of reducing both youth and 
adult drug use by 10 percent over 2 years and by 25 percent 
over 10 years.
    To meet these goals, the strategy articulated three core 
objectives correlating to prevention, treatment, and law 
enforcement: one, stopping drug use before it starts; two, 
healing America's drug users; and three, disrupting the market 
for illegal drugs.
    The 2003 strategy restates those core priorities and 
reiterates the President's drug use reduction goals. In 
addition to proposing the continuation of existing programs in 
each priority area, it presents some new initiatives to help 
meet the President's goals.
    The most prominent of these new initiatives is the 
administration's ``Recovery Now'' drug treatment voucher 
initiative, which was the subject of a hearing in this 
subcommittee just last week.
    One of the programs slated for reduction in funding is the 
Safe and Drug-Free Schools Program. Funding for State grants 
under this program will be reduced by $50 million; and $8 
million will be diverted to drug testing of students, expanding 
upon drug testing efforts initiated by the Department of 
Education in fiscal year 2003.
    I think we need to give this a very careful look, Mr. 
Chairman. We can probably all agree that improvements to the 
Safe and Drug-Free Schools Program can be made. But let us make 
those improvements, rather than undermine this important 
prevention program.
    I also have reservations about making the participation of 
ordinary high school students in constructive extracurricular 
activities contingent upon their submitting to a drug test.
    On the law enforcement side, we see a continued commitment 
to the efforts of the Drug Enforcement Administration and other 
domestic law enforcement agencies to disrupt organizations 
engaged in the trafficking of illicit drugs and precursor 
chemicals.
    The strategy also continues our international law 
enforcement efforts in Latin America and the Andean region, 
funding the Andean Counter-Drug Initiative at $731 million.
    Clearly, we must continue to try to stem the flow of 
illegal drugs into this country. But for reasons both moral and 
strategic, we must also be mindful of the impact of these 
efforts on the people who live in these countries.
    I would like to see our international counter-narcotics 
policies implemented in a way that respects and protects human 
rights, and that promotes economic stability and political 
freedom. I hope Director Walters will address this in his 
testimony.
    In terms of results achieved over the last year, the 
strategy reports some progress toward meeting the President's 
2-year goal for reducing youth drug use.
    Similar improvement is not reported with respect to adult 
use, however, and the national household survey on drug abuse 
shows that both the number of adult drug users and the number 
of Americans age 12 or older who require drug treatment 
increased between 2000 and 2001.
    The strategy suggests that changes in the household survey 
may affect its utility as a gauge of progress toward these 
goals.
    I would like to hear how the household survey has been 
improved and revised, and how the administration plans to 
demonstrate its effectiveness in meeting its stated 2 and 5 
year goals in light of changes to the survey.
    Mr. Chairman, I want to applaud the administration for 
attempting to strike an effective balance in the strategy, and 
especially for its continued emphasis on prevention and 
treatment as essential elements in a comprehensive drug control 
policy.
    The emphasis on accountability and cost-effectiveness 
measures is also welcome. I know the Director is sincere in his 
desire to see the drug control strategy work to reduce drug use 
and dependency in our society; and I welcome the opportunity to 
continue working with him to help improve the lives of my 
constituents in Baltimore, in Howard County and Baltimore 
County, and those of all Americans who are affected by this 
very destructive menace of illegal substance.
    In my discussions with Director Walters, I can say that I 
do applaud you for all that you are doing. I believe that your 
efforts are very, very sincere. I think you are on the right 
track, and although we may differ at times on a few things, I 
think our goals are the same, and I thank God for that.
    Again, Mr. Chairman, I thank you for holding this important 
hearing. I look forward to the testimony of our distinguished 
witness, Director Walters, and I look forward to working with 
you and the other members of this subcommittee, as we begin the 
process of formulating a reauthorization bill for the Office of 
National Drug Control Policy and as we continue our oversight 
work in this important area. Thank you.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] T7417.021

[GRAPHIC] [TIFF OMITTED] T7417.022

[GRAPHIC] [TIFF OMITTED] T7417.023

[GRAPHIC] [TIFF OMITTED] T7417.024

[GRAPHIC] [TIFF OMITTED] T7417.025

    Mr. Souder. Thank you.
    I recognize Mr. Davis from Illinois, either for a 
statement, questions, or a combination thereof.
    Mr. Davis of Illinois. Well, thank you very much, Mr. 
Chairman. I do have a brief statement.
    I want to thank you for scheduling this important hearing 
on the National Drug Control Strategy to discuss a most 
important topic that has engulfed the urban and rural 
communities nationwide.
    Yet, the issue of drugs and drug control has to begin, I 
think, with young people, especially when they are young and 
more easily influenced.
    I am also appreciative of the administration's proposal to 
reduce drug use in America, which consists of three important 
components: Phase I, prevention; phase II, treatment; and phase 
III, abolishment.
    However, without adequate resources, communities would have 
a hard time in the fight to remove drugs and violence 
associated with drugs from their schools, playgrounds, and 
neighborhoods. I am also proud that the NDCS addresses the 
needs of these communities in a very strategic manner.
    Yet, while the National Drug Control Strategy reflects 
significant restructuring, I would like to see more emphasis 
placed upon prison systems and the problems of drugs and drug 
usage behind prison walls.
    We should not continue to risk the American public by not 
rehabilitating ex-offenders, many of whom are serving time for 
a drug conviction or a drug-related crime. It seems as though 
in some instances, they are simply locked up with the hope that 
their addiction problem will go away.
    With over 630,000 ex-offenders returning each year to our 
neighborhoods and communities, I think that adequate funds must 
be allocated to eliminate drug use from our communities. An ex-
offender without a chemical dependency is a greater benefit and 
will reduce the costs attributed to their individual re-entry 
into society.
    I also feel that the strategies should reflect the enormous 
problem of drugs in public housing communities. Every child 
deserves a chance to succeed. Yet, by the abolishment of the 
Drug Elimination Program, which was used by public housing 
authorities specifically to hire police and fight crime and 
drugs in public housing, it seems to me that we took away a 
great instrument.
    I commend Mr. Walker and members of his staff and his 
entire department for the work that they are doing, and I am 
seriously appreciative of the fact that there seems to be a 
reduction in teenage use of illegal drugs.
    However, I am perplexed, because in spite of that 
recognition, in many urban communities throughout America, on 
almost any street corner, at any time of day or night, there 
are large numbers of individuals there, hollering ``crack and 
blow,'' ``pills and thrills.''
    Communities feel totally immobilized in many instances. 
There is serious frustration in terms of just simply not 
knowing what to do. While I recognize this is a problem for law 
enforcement authorities and for the local police, any direction 
that Mr. Walters could
give in terms of how to address this tremendous problem would 
be greatly appreciated.
    Again, I thank you, Mr. Chairman, and yield back the 
balance of my time.
    [The prepared statement of Hon. Danny K. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T7417.026
    
    Mr. Souder. Thank you, I would like to yield now to Mr. 
Bell.
    Mr. Bell. Mr. Chairman, I came in late. Would this be the 
proper time for questions, as well?
    Mr. Souder. Yes.
    Mr. Bell. Thank you, Mr. Chairman. It is good to see you 
again, Mr. Walters, and thank you.
    I commend the Chair for calling this hearing, because I 
think it is incredibly important. The war on drugs is something 
that we all support, and it seems that it is going to be a 
never ending war.
    We do have the benefit of experience now, some 30 years of 
experience, looking at differing programs, trying to measure 
what works and what does not work. But it does not seem that we 
are ever going to be able to completely tackle this enemy, and 
so it becomes an ongoing process.
    I think it is extremely important that we take a hard look 
at the strategy and discuss whether we are moving the right 
direction. But I certainly support your efforts.
    Mr. Walters, would I be correct in saying that the National 
Drug Control Strategy of 2003 derived its evidence from the 
monitoring the future survey conducted by the University of 
Michigan? Is that correct?
    Mr. Walters. Yes, that is part of it. It is also the 
measure that we have used because of an issue with the 
household survey that Mr. Cummings referred to, as a measure of 
youth drug use now.
    Mr. Bell. Was the national household survey used, as well?
    Mr. Walters. It is partly used. The issue with the 
household survey is that the survey design had been changed, 
actually prior to my getting into office. What is essentially 
happening is, people are now being paid to participate in the 
survey.
    A subset of the participants in the last survey, the one 
that was released in August for 2001 were paid, and this year, 
all households will be paid. The problem is that when they went 
back to try to determine what effect that had on the survey, 
they could not adjust for it. So what will happen is, this 
year's results will be declared discontinuous with previous 
years.
    It will probably give us a better counting of the 
phenomenon of use and abuse that it is measuring. The problem 
is, they do not have a statistically reliable way of telling 
you what the trend is between last year and this year.
    Mr. Bell. So that I will be clear, then under the 
monitoring the future survey, participants are not paid.
    Mr. Walters. That is correct.
    Mr. Bell. And do you feel like that, as a result is more 
reliable?
    Mr. Walters. Well, let me just also qualify my answer. The 
monitoring the future survey is done through schools, and 
schools volunteer for this. Actually, there will be a change in 
the future of the monitoring the future survey that has been 
proposed, that would allow the paying of schools for 
participation.
    They believe they can compensate for any anomalies that 
creates, because they have some schools where a portion of the 
survey is done at two schools, or at the same schools, 2 years 
in a row, so they will be able to see what difference that has 
on the participants from various demographics in those 
situations.
    But obviously, when you do a survey, if you make a change 
that causes people who did not answer before to answer, it is 
possible that those people have a different characteristic in 
their answers than those who answered before.
    Mr. Bell. Well, we wouldn't be wanting them to provide 
information that may or may not be accurate.
    Mr. Walters. Yes, well, there are two kinds of phenomenon, 
and I am not a survey expert. There are two kinds of 
phenomenon. One is, there may be people who did not participate 
before because they thought the information they were going to 
give was something they were reluctant to talk about; which, of 
course, when you are measuring self-reported drug use, you 
assume that it may be that they do not want to talk about their 
drug use.
    The other is that there is a countervailing phenomenon, 
which is sometimes known to law enforcement, which is if you 
pay people for information, they say, well, what does he want 
to hear. Let us give him some information about that.
    So it may both accelerate and may create a better and more 
reliable base for drug use. But also, we do not know yet. There 
is a tendency sometimes that causes people to report more, 
because of the nature of the compensation.
    Now we are hoping to get a reliable, more thorough, more 
comprehensive count, because we are using this survey also to 
measure those who need treatment. Because the question was 
built in a first time a couple of years ago, use the diagnostic 
criteria to determine those who need treatment to get a survey 
of who is not being treated in the general population and what 
is happening.
    It should give us a more reliable number. It will give us a 
bigger number. But that is good, because we can then scale 
resources.
    It is only bad because if we want to use this as a measure 
of accountability, we need to know what is happening year-to-
year. Otherwise, we could have programs that actually are 
working, but they will look like they are not working, because 
we will have a bigger number, and that will make it look like 
they are not working.
    So until we get this done, which it will be done with this 
year's survey, we are able to adjust the baseline from the 2002 
survey that we released in the summer. But unfortunately, it 
creates a bit of a complication here.
    Mr. Bell. Well, let me just ask you, and I do not know the 
answer, because I have not looked at it, does one of these 
surveys cast a more favorable light or are programs that have 
been supported by the administration in a more favorable light? 
Is the monitoring the future survey more favorable than 
programs that have been supported by the administration?
    Mr. Walters. Well, they are different.
    Mr. Bell. Now, I am curious, and I will go back and look.
    Mr. Walters. Yes, the reason we talked about the monitoring 
the future survey is not only because of the problem with the 
household survey, but also the monitoring the future survey was 
the first released survey of young people that covered the 
spring of last year.
    So it was the most recent survey that covered the period 
when we started to change some of these programs in the media 
campaign, and obviously, in the term spending programs, that 
money was not deployed.
    But particularly in regard to what is happening now in the 
country, also I would say the other important factor here, and 
it is not policy, but I believe from visiting schools, and it 
may be your experience as well, September 11th made a big 
difference in the way young people look at the world.
    I believe, from my experience, people may have difference 
views. They became more serious about the world. It is not 
uniform, but all of a sudden, the world was not simply a benign 
place anymore. It was a place where it was dangerous, where 
responsibility made a difference, where they saw people risking 
and giving their lives to other people to protect this country.
    There was a greater tendency before to say, the world is a 
shopping mall. Figure out what you want and they can give it to 
you. It was about having the most fun and being as little 
accountable as possible.
    I think that has changed. Now it is not universally. But I 
think what we may see in that last year's data is something we 
want to accelerate, which is a return to some sense of personal 
responsibility.
    It is not just what adults make young people do, obviously. 
It is what young people take as a responsibility to themselves. 
We would like to try to build on that, but we need to know what 
is happening.
    Mr. Bell. Have you actually seen that trend develop, post-
September 11th?
    Mr. Walters. Again, aside from the survey data that has 
already been reported, which cannot tease out causes, what I am 
saying is, my experience is going to schools and talking to 
young people. I try to visit middle schools and high schools, 
and I try to talk to assemblies of students.
    As I say, it is not universal. I still find that one of the 
biggest places of ignorance for parents is, they do not 
understand that today, it is not a matter of a kind of pro-drug 
culture that is in the shadows and is ashamed.
    But in many schools, there is an aggressive pro-drug 
culture among kids. There are Web sites. They have been told 
that, you know, it is just a matter of the bigotry of adults. 
All the baby boomers use drugs. You should use drugs. It is 
kind of silly to be responsible here.
    I try to get those kids to speak up, because they need to 
be answered. We need to have peer pressure that works our way. 
The problem here is, in part, that while there is a greater 
awareness of responsibility, we have not fully gone to the 
point of, I think, giving the kind of status to the kids who 
want to do the right thing.
    I think, in too many cases, from my experience, in schools, 
kids believe they are expected to try drugs when they are in 
the teenage years and in high school. We are not helping them 
in society as long as that exists.
    If they believe the culture expects them to use drugs, 
despite all the prevention messages, and that the normal 
trajectory of adults is, they fool around with these 
substances, then too many kids are going to continue to get 
into trouble.
    Mr. Bell. I cannot be any more hopeful that you would have 
some type of trend like that develop. But going back to my 
original statement about this being an ongoing war, if you look 
at the monitoring the future survey and some of the results in 
that survey, I do not know if they exactly bear out what you 
are saying, especially when you look at more harmful and 
addictive drugs.
    I am just reading here, cocaine use remains statistically 
unchanged from 2001 to 2002 for each grade. Crack cocaine use 
showed a significant increase in the past use, in use among 
10th graders. Heroin use by 8th, 10th, and 12th graders 
remained stable from 2001 to 2002, following a decline from 
2000 to 2001 among 10th and 12th graders, and ecstacy use was 
also increased.
    So would you not agree that the statistics in the 
supposedly more favorable survey really are not bearing out or 
leading one to believe that there is any kind of serious move 
away or cultural shift in our society?
    Mr. Walters. No, I cannot agree. I think I want to be 
clear, because I understand what you are saying, and you should 
be skeptical until we demonstrate that you should not be.
    I did not mean to be understood to say that in every 
category of drug use for all three grades it is down. It is 
not, and you pointed out some of them that are not.
    But across most categories and in terms of overall drug use 
for 8th and 10th graders in particular, and 12th graders have 
been more stable here, it is down.
    To put it a different way to maybe just explain what I am 
saying more clearly, in roughly 10 years, we have not had this 
broad a set of categories, as are measured by drugs and by the 
three grades, go down in this direction.
    Again, it is not every category, and some of the smaller 
categories and more dangerous drugs are troubling in some ways. 
But overall drug use and, frankly also, binge drinking and 
alcohol use and cigarette use are down, and they are down in 
ways they have not been before.
    So it is a beginning, but I do not want to leave the 
impression that, you know, the reason that I could say what I 
said is, we picked the good nuggets out and we ignored the bad 
ones.
    There are some that are not down. Ecstacy use, for example, 
by young people, which had been accelerating rapidly has, for 
the first time here, gone down. That is good news. Also, you 
note in there that LSD use is down to a level it has not been 
measured at in 28 years of this survey.
    I believe the reason, frankly for that, the argument 
previously was, well, LSD is down because ecstacy is up. Well, 
ecstacy is down and LSD is down.
    I believe LSD is an example, and I think worth looking at. 
There is a big case now in the final stages of being argued, 
where law enforcement took down a major LSD ring.
    I do not even think, from my discussions with law 
enforcement, that they understood the magnitude and the 
importance of that ring. They seized over 28 million doses of 
LSD. I believe that what we are seeing here is actually an 
unusual supply side contribution to one drug.
    Now we cannot do that everywhere. But what I am saying is, 
the categories reflect changes, I think, that are the result of 
real efforts. I want to say that I stand behind the overall 
being down. But I am not saying that we have gotten to where we 
want to be or where we should be, and I am not saying that 
evidence does not show that there are serious problems.
    While it is small, obviously, cocaine and heroin use by 
high school and middle school children is unacceptable, and has 
to be for any civilized society.
    Mr. Bell. Thank you, Mr. Chairman.
    Mr. Souder. Thank you, I want to cover a couple of other 
questions, and then I will yield back to the other Members. 
This is part of the reauthorization here.
    One of the powers that you have is to de-certify the 
budgets of any drug control agency, and you have not de-
certified any since you have been in office. Now part of that 
is just supposed to be deterrence, and hopefully you would not 
actually have to de-certify the budget.
    But could you explain how this has worked in the budget 
process? Is this tool an important leverage to other 
departments, even though you have it? Have you ever threatened 
it? Is this important to have in your authorization?
    Mr. Walters. Yes, I think it is vital in terms of the tools 
that we have, to make sure that resources go with policy.
    I mean, I actually am a believer in the words of former OMB 
Director, Richard Darman, ``Policy without budget is just 
talk.'' That is why I think it is very important to talk about 
what the budgets can and should do here.
    Yes, we have had discussions where behind that discussion 
is a conflict over the certification process. I think it helps 
us, because we now have a process where we send out guidance at 
the beginning of the year with OMB. We see budgets in the 
program form and can give comments back, and then we see them 
in the final form.
    I have been able to have discussions with not only 
department heads, but OMB Director Daniels, over where we want 
the budget to be, which avoids us having to, as a last resort, 
just come to blows over amounts.
    I also think it is important, and I will just mention this, 
as you know, we have changed the way we score programs. The 
past practice of the office, and I was there when some of this 
went on, so I am not criticizing anybody, was in order to show 
that we were serious, to include everything you possibly could 
in either the cost or what we are doing about drug control.
    So we had programs that had multiple functions, and 
sometimes very small parts of them that were involved with drug 
control, that were scored. I am not saying they were dishonest 
in the effort to make an estimate. But they were not resources 
we were managing.
    Parts of the Head Start Program were scored on the grounds 
that sometimes the Head Start Program provided prevention 
information. Did we manage that; no. Could we actually tell you 
in an accounting way? Could we actually move that money, if we 
wanted to move that money, if we wanted to move it from that 
program to drug-free schools; no.
    So we have stopped that, and that is why the drug control 
number that you see in the budget is smaller. Programs that are 
not directly managed and programs that are not 100 percent drug 
control have either been made 100 percent or they have been 
removed with a couple of exceptions.
    And in these exceptions, we used the directive and other 
powers of my office, which I think is worth looking at, because 
they will not be prominent in this discussion. But we have sent 
directives to agencies to create central controls over the 
moneys they spend.
    So, for example, with an agency that cannot simply isolate, 
for example, Customs Service, we have asked them to create an 
account that allows us to ask them to monitor the moneys that 
they have requested and that they are expended are being 
expended for this purpose.
    There has been some squealing and crying about this, and I 
recognize that more bureaucracy is not necessarily achieving 
goals. But you cannot achieve goals if it is not management of 
resources.
    So we are moving in that direction and we have tried to do 
that with this, as we said we would last year. We have 
presented the budget in a way that focuses on programs as 100 
percent drug control, except in the cases where we have created 
transfer accounts similar to what was originally created at the 
Department of Defense, to make sure that what we say we are 
spending, we are spending, and if it changes you can monitor 
it.
    Mr. Souder. Let me ask you too, how does Drug-Free Schools 
fall into that, since it has become diverted and includes safe 
anti-violence programs and after-school programs?
    Second, in HUD, there was an anti-drug program that 
Congress, at the request of the administration, which I 
disagreed with, enabled that money to just be general anti-
crime or whatever types of programs, but no longer had a drug 
set-aside.
    Do you still track that in HUD to see whether they are 
doing anything in narcotics, which they said they would; and if 
so, how would you rate that in your budget and also drug-free 
schools?
    Mr. Walters. I believe that is the program that Mr. 
Cummings referred to, and we have removed it from the drug 
control budget.
    We could and we have had discussions with the Secretary of 
Housing and his staff about monitoring some of these programs 
and doing some things in HUD. It does not forbid us from 
working with existing programs.
    I will confess, I am not aware that we are tracking that 
money in terms of my office. Maybe HUD is, and I will be happy 
to check on it and supply the answer for the record.
    This can be a process where we include process where we 
include programs in or out. What I wanted was, let us stop 
moving paper and pretending we are doing something and 
inflating the budget over what we are doing, and let us focus 
on what we are actually doing.
    Because you know as well as I do, it is possible for both 
the executive branch and the legislative branch to array 
numbers in a way that looks good.
    Mr. Souder. We are in agreement with that. The question is, 
how could we give maximum amount of power to make sure that you 
are holding accountable the other statements that come up here 
to the Hill and say, we are fighting narcotics? If it is 10 
percent of a budget that is huge, you are not going to have 
much influence.
    Mr. Walters. Right.
    Mr. Souder. If it is Safe and Drug-Free Schools, where we 
have watered down the definition, that is the biggest 
prevention program.
    Mr. Walters. Yes, safe and Drug-Free Schools remains the 
biggest problem in this new structure, partly because it is a 
powerful prevention program. We know a great deal of the money 
is going for prevention programs in some areas. But it is very 
difficult to nail it down, and a lot of additional things have 
been added, and also, as you know, the re-authorization in 
education that is allowed.
    Other programs, with flexibility, they could move other 
resources into drug control. We are not counting those. In the 
old days, we would have counted the new Mentoring Program, $100 
million, as a portion of which is obviously going to at-risk 
kids. At-risk kids are a target of our anti-drug efforts. We 
would have counted a portion or all of it.
    We did not do that. We could have buffered the cut that Mr. 
Cummings referred to by just saying, well, let us say 50 
percent of the mentoring program will help us on drug 
prevention. There is zero change in the actual prevention money 
in the Department of Education. We did not do that. The reason 
is because I do not believe that we can do what we need to do 
if we are going to manage in that way.
    We still hope to make the Safe and Drug-Free Schools 
Program more accountable and focused, and we are going to have 
to work with Congress on this. You are absolutely right. 
Congress is also giving it all these other responsibilities.
    I am perfectly willing to say, if that is what the decision 
is of the Government, then maybe we ought to trim some of this 
out in some other kind of way; or, we ought to have a better 
understanding of what we expect to be accomplished by these 
programs.
    I would prefer to have flexibility to local administrators, 
as we have learned the hard way in these programs, but real 
accountability. That is, that you measure drug use and you 
measure drug-related problems every year, and you report on 
what you are doing and why you are making a difference.
    If you do not, you report on what you are going to do to 
change what you are doing, so you do make a difference, and 
there is a real accountability here, either public 
accountability or accountability that is tied to resources or 
your ability to control those resources.
    We are not at that point, yet. But I do think that is what 
we are trying to drive to, with community coalitions and other 
things. Community people should ask of their institutions, what 
is the evidence that you are making a difference? They ought to 
put pressure on local people, as well as national leaders, if 
you are not making a difference.
    So it is a little bit harder with Safe and Drug-Free 
Schools, because it is a big amount of money, as you know, it 
goes to all schools, and it is a little harder to have that 
kind of accountability.
    But my personal view is, if a school is not accessing drug 
use and giving you indicators of the consequences of drug use, 
it is not doing the job.
    Because you cannot say, well, I do not know where there is 
a drug problem. We have got, as you mentioned, 30 years of 
experience. If you have got kids this age, you have got a drug 
problem. You are just not paying attention if you do not know 
how big it is.
    Mr. Souder. We are going to have separate hearings on the 
two main components on HIDTA and on the media campaign. We will 
also get some written questions. Mrs. Davis had several and I 
have some, but I wanted to ask one more in the official record.
    That is, we have had a wide variation, and you have 
mentioned weak/strong, but we have had a wide variation in the 
staffing of the department. Is there anything in the 
legislation? Do you feel you are adequately staffed at this 
point?
    Are there things that we should be looking at, if you want 
to add today, or if you want to answer informally or submit 
written, as well? Are you satisfied where you are currently at? 
Roughly, how many staff do you have at the current time?
    Mr. Walters. We have about 120 staff. We have a number of 
detailees that are from other agencies that we have to work 
with, who report to us and also, in some cases, report to the 
agency that is their home.
    I do not think the staff needs to be a lot bigger. We have 
asked for some additional FTEs in the 2004 request, largely 
because the office had, I think, an unusually large number of 
military detailees, because of my predecessor and his desire to 
staff in the way he wanted, which I do not argue with, and I 
love military people. They are dedicated. They are competent. 
They are able.
    But I do think that we will keep some, especially since 
Secretary Rumsfeld has asked to pull military people, if at all 
possible, back to the central purposes of the military in this 
time. It behooves us to staff these programs with somebody.
    People think that because the military has got a lot of 
people, they should give them willy-nilly all over the place, 
and there was some of that. So we are trying to do our part to 
fill these with civil service positions.
    I think that the challenge that we face in running the 
programs, which I will be frank with you about, is when I left 
the office at the end the President's father's administration, 
we had a number of the programs you see now, HIDTA, smaller; 
the Counter-Drug Technology Assessment Center, smaller.
    But we have got very important tools: the media campaign, 
the Community Coalitions Program that did not exist in the 
office at that time.
    We are now an office that runs, as I mentioned in my 
testimony, what are the equivalent of more than half a billion 
dollars. We are bigger, as you know, then the rest of the 
Executive Office of the President, combined.
    It is not an easy task, and when I left the office, there 
were 145 people on the payroll in 1992, and we are now smaller 
and we have some contractors and others. We are now 
administering programs with the help of cooperative 
arrangements with other agencies that are vastly larger.
    I do not think we need to be bigger here. But I do think 
that what we need to be able to do is give you and the people 
who are responsible for appropriating money to us a better idea 
of how these work, and how the programs as a whole work, and we 
are trying to do that.
    So some flexibility on how we apply resources, or the 
ability also to do some research in this area, to do some 
additional flexibility with regard to sometimes in management.
    We have talked about this in regard to the media campaign, 
with you, Mr. Cummings and some others. We have tried to make 
sure that we have the flexibility in some cases to buy things 
that were not always available before, that either give us 
better quality or better monitoring or both.
    But I do not need a lot more people. In fact, while I 
recognize that everybody wants more people in some ways, the 
problem is, this office is supposed to pull things together, 
and if you get too big, you have problems coordinating 
yourself.
    But what I do need is the ability to hold people 
accountable, to have people feel like they are engaged in a 
productive enterprise, and I think we have to at least have the 
authorities now.
    I know the office has been under threat before. They do not 
like the way the authorities are used when we squeeze agencies. 
Well, that is our job.
    In the past, there have been various agencies that have 
tried to weaken or undermine these authorities, and I am not 
saying that will not happen again. But I think the budget 
authorities, the oversight and clearance authorities, the 
authorities that allow us to bring coherence and to have a 
voice in what policy and budget are going to say these are 
important.
    I think the authorities that allow us to explain that to 
the country, not with grandiose amounts of money, but when we 
face an issue, and I have asked people to add this chart from 
the strategy that you see on the far side. It is getting at the 
issue of how long we have been at the drug war.
    The biggest single threat to my line of work, in my 
judgment, is cynicism; that nothing works and institutions are 
not making enough progress, and we want to make the problem 
smaller, as I think I have made clear.
    But there is also a lack of understanding of how much we 
have made this problem smaller, that people are making a 
difference every day.
    You see a comparison there of what has happened with 
alcohol on the closest chart to you on the dias, drugs in the 
center, and cigarettes in the other column. The time goes up 
and down, and the size of the problem is what is measured 
horizontally.
    The drug problem is dramatically smaller. That is overall 
drug use and cocaine use, in particular, because of the damage 
of cocaine, over the last 20 years. That should not make 
anybody feel better who has got a kid or a community that is 
suffering. But it does show that we can make differences by 
doing the right thing.
    In contrast, with all the efforts we have made against 
alcoholism and smoking, we have not had as big of a reduction.
    So what I mean by this is to say, our frustration with not 
being further should not be a frustration that we should not 
demand more of ourselves.
    I believe that legalization, for example, has its most 
powerful penetrating argument in society today; that we cannot 
do anything about this problem.
    But this is, in reality, of course, as I do not need to 
tell you because you are here and you know this, like 
education, like health, like public safety. No civilized 
society says, I am not going to worry about addiction. I am not 
going to worry about having teenagers and our children exposed 
to dangerous, addictive substances and the consequences of 
that. You do not remain a civilized society when you do that.
    But what we have to do is translate the knowledge that we 
can and should expect more and we can do things into concrete 
management. Because if we do not do that, then it is all just 
cheerleading. I did not come back in and you, I know, do not 
serve in government to be cheerleaders. We want to accomplish 
something.
    So we have to be able to provide measures and standards and 
policies and encouragement and accountability in a way that 
causes that result. That is the flexibility that I am asking in 
the staffing and in the powers of the office and the moneys 
that we have to do this. It does not have to be a lot bigger, 
but it cannot be weaker.
    Mr. Souder. We have definitely seen a change since I was 
elected in 1994, because the HIDTA Program was small and took 
off, directly under the ad campaign. There was a whole new 
initiative since then, as well as the community anti-drug 
efforts.
    The technology has exploded in my district and elsewhere. 
We need to make sure that there is adequate management. Hey, I 
am not one for over-padding. I just want to make sure that it 
is adequate.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Director, I was sitting here, just listening to you. I am 
just trying to figure this out. You have been there for a 
little while now, and you were there before, and apparently you 
are going somewhere.
    In other words, you are on a path leading to something. I 
am not just talking about the goals to restructure this agency. 
I really believe that you are thinking everything through very 
carefully and trying to figure out, from a very practical 
standpoint, how to make this work and how to make sure there is 
integrity in the numbers.
    Sometimes when I have sat here over the last 6 or 7 years, 
and not necessarily this subcommittee, but our overall 
committee would constantly put these goals out.
    You know, you start wondering, is that license an 
encouraging thing for people to stretch the numbers here and 
there? Because what would happen if they did not make the 
numbers? We had folks up here who would beat them across the 
head. I am not saying they fudge the numbers. I am not saying 
that. I do not know.
    I am just trying to figure out, first of all, apparently 
you believe that there is something and that this department 
can work much more effectively and efficiently. Apparently, you 
are making steps in that direction. But is there somewhere you 
are trying to get to? Do you follow what I am saying?
    Mr. Walters. Yes.
    Mr. Cummings. And how do you plan to get there? In other 
words, I am sure you do not have a vision of us sitting here 10 
years from now, looking at the same numbers, right?
    Mr. Walters. No, I do see you sitting here 2 years from now 
looking at the same numbers. In addition to accountability, 
believe me, I know the President of the United States will not 
have me in this position if we are not making progress. He 
believes in accountability, and very seriously.
    So when we talked about these goals, he believes that the 
integrity of the larger enterprise he is engaged in means that 
we give numbers.
    I am annoyed about the problem we had with the NIDA survey. 
Because it was not something that we knew about when we said 
it, but it creates this kind of complication that suggests 
that, well, somebody is fooling around the numbers here. We are 
not, and we are going to get this fixed and get it continuous.
    But that is just a matter of people have to have confidence 
that we are going to show them a path and we can show that it 
is working.
    Yes, where I want to go is to take the key institutions, 
and let us start with treatment. I believe the treatment system 
works.
    The treatment systems needs more resources, but the 
problems are that the treatment system has problems with 
getting people help immediately; getting enough people to 
provide help; and getting accountability in improving the 
quality of the treatment system. You know, because we have 
discussed this.
    Treatment is a kind of step-child in the medical 
profession. Nobody ever says they are against it. But many 
people, even in the medical profession, are skeptical about its 
abilities to work. They are not as engaged. They do not put 
their shoulder to the wheel.
    The field has some excellent people. My Deputy Director for 
Demand Reduction, Dr. Bartwell, as I said at the last hearing, 
I could not do my work without her.
    But she and I are working together to try to get more parts 
of the medical profession to work in this area effectively.
    We do not have people who are first rate who are going in. 
We do not have the systems that encourages and rewards them for 
their professional competence in this field to the degree they 
do in other fields.
    We want the structure of the way in which we support 
treatment through the Federal Government, to reward people who 
make a difference financially, as well as with greater 
responsibility, leadership, and expectation. We are trying to 
take a step in that direction with the changes that we 
proposed.
    But we also want to create better understandings of what 
the need is and how to shape that in communities in a more 
systematic way. We want to build the capacities of institutions 
to do a better job, not just while we are here, but the way the 
structure works afterwards to sustain and extend that.
    The same is true with prevention. The Safe and Drug-Free 
Schools Program, as you know, unfortunately, in too many 
places, people think that is what they are entitled to spend, 
at maximum, on drug prevention.
    Well, that is not what was intended. It was intended to add 
Federal resources to State and local efforts. I know people are 
strapped.
    But you and I also know, if schools and communities are not 
doing enough to stop kids from being exposed to heroin and 
cocaine and marijuana and pills, what exactly is the higher 
priority? You know, what do they expect to teach the children 
when they are intoxicated and having their attention and 
concentration and their behavior destroyed by dangerous, 
addictive substances?
    So there has to be some kind of priority, and there has to 
be a way of translating the general sense of that priority into 
what we expect good schools to do.
    I know you had a question about drug testing. I think 
testing is a diagnostic tool that works. It works in business. 
It works in the military. It works in a lot of medical 
settings.
    Again, it is not about punishment. I recognize there are 
civil rights issues. But I have also been in schools, and I was 
in one outside of Pittsburgh, a high school with 1,000 kids, 2 
months ago. They have had three girls die; two from heroin and 
one from oxycodine in the last year, overdoses. They tell me 
that drug use is out of control. The principal told me that 
when I arrived.
    I started working in the Department of Education. When a 
Federal official arrives, principals do not say, the drug 
problem is out of control. They hide the problem, if there is a 
problem, because that is where the press is.
    What could they do? Well, they need to do a better job 
obviously of bringing the community together, of doing 
prevention, of doing treatment when you have that kind of 
problem. But how do they detect; how do they have more teeth? 
Testing would help change the environment.
    I kind of kept this at arms' length, because of the issues 
of civil rights or civil liberties and other things that are 
underneath it for a long while.
    What has changed my mind in the last year is visiting 
schools, public and private, where there is testing, and seeing 
the kid there, what the kids say; not what parents or teachers 
or administrators say; this means, I do not use drugs, and I 
have an excuse and my peers have an excuse to say, the 
expectation in our environment is, you will not use.
    That makes such a dramatic difference, and it should be in 
every school. It does not need to be in every place. But in 
places where kids are at risk, this is a tool that can make a 
significant difference. It is not the only thing. It is not 
substitute for what we do with the media campaign or other 
prevention programs.
    But what we mean by highlighting it here is to say, if 
there are tools that we can deploy in institutional settings 
that will save lives and make a difference, we want to do that.
    On the law enforcement side, when you ask where I want to 
go, then I will stop, we do not manage the way we attack the 
market and visit drug trade as if we expect to make it smaller.
    That is not because people are not working hard and putting 
their lives at risk. It is because we intended to do this in a 
case specific way. Whomever we find that is a drug dealer, we 
try to find out where they go, or who supplies them, or who 
works with them, and go from that position.
    We want to go back and say, how does this market work and 
how do we find the vulnerabilities to take this market down in 
a more systematic way?
    You and I have talked. I understand why we have to have 
this community safety, and we have to stop open air drug 
markets.
    But we have to stop open air drug markets and stabilize 
neighborhoods. Otherwise, the enforcement activity is seen as 
also a destructive force in communities, taking one generation 
after another; luring them into the drug business, and then 
arresting them and incarcerating them.
    So what we need to do is have the ability to provide 
security and to re-build communities through treatment and 
other kinds of community development. Hopefully, the community 
coalitions will be an important force there in bringing the 
relevant parts together.
    But otherwise, what we are doing is simply grinding, year 
after year, a group of people's lives away into dust. Nobody 
wants to do that, and we should not be satisfied with that as a 
status quo, even if people have the best of intentions and are 
doing this because they do not know anything better to do.
    We know better things to do. We need to make those better 
things happen in more places, and to try to make that the 
expectation, as well as the resources to do it, available for 
people.
    Mr. Cummings. Let me just say this. You know, I was just 
listening to what you just said about the schools and searching 
lockers and whatever. You said maybe there are some schools 
that it should be done at and some that should not. I think 
that would be a hard determination.
    I have some schools in my district in one of the richest 
counties in the country. Just about every kid goes on to 
college. This is according to the parents and the teachers and 
the principal. It has one of the worse drug problems out of all 
of the schools I have been to. It is not located in the city.
    A lot of people would probably look at some of the schools, 
like in the area that you were in when you visited Baltimore 
and say, well, that is a school we ought to go to.
    Well, let me tell you something. I look at the results of 
kids that have gone to prison from this school, this other 
affluent school. Then I remember when we went out to Chairman 
Souder's district in Fort Wayne. I will never forget, and I 
have talked about it everywhere I have gone.
    I assume these were Republican judges with the Drug Court. 
But when I talked to them, they were very conservative people.
    They said, look, you know, we have got a really bad problem 
here, and they were very upset that there were so many things 
in the law in the State of Indiana that said that if you had a 
drug conviction, I think it was, that you could not do certain 
kinds of jobs.
    They were almost begging for some relief, because they had 
so many kids, and these kids were not inner city kids. They 
were begging for relief.
    So I do not know where the balance comes in there. I 
understand what you are saying about maybe doing the random 
searches. But I do not know where you strike the balance, where 
you do step over the line of civil rights, and how you choose 
whose lockers you are going to go into, or where the dogs are 
going to sniff, and that kind of thing.
    I was just wondering, but you have pretty much answered my 
question. You think it is a good tool. But I think it is a tool 
that we have to be very careful with.
    Mr. Walters. I agree, and I did not mean to be into lockers 
and dogs, as much as testing individual students. I certainly 
did not want to be misunderstood to say that I think this is an 
inner city problem. The school that I was in, in Pittsburgh, 
was in the suburbs. I would not say it was wealthy, but it was 
a well-off community.
    I have been to schools in Ocean Side, CA, a very well-off, 
reasonably well-off community, where they have instituted 
testing because of the problems they have had at the public 
school system.
    I am not saying that what we are trying to say here is, the 
drug problem is over if we have student-based testing. But I do 
think that is one instance of a tool.
    I think the overwhelming tool is, when we have 23 percent 
of the people who need treatment being teenagers today, we need 
people who can be sensitive to and are trained to recognize the 
problems of problem use in schools and refer kids earlier on. 
It can be helpful with testing, but it is not totally reliant 
on testing.
    I mentioned the medical profession. Most of that 23 percent 
are seeing general practitioners and pediatricians. They are 
not being screened. Now where that screening involves a test or 
it involves an examination, that would have determined problem 
drug or indicate a need for a test, it ought to be done.
    We require kids to be tested for tuberculosis, to protect 
them from that disease. We have to face today that substance 
abuse is a disease that particularly affects young people.
    I am saying that we now have tools and we certainly should 
have a recognition that where communities and schools and 
parents and school communities want to use those tools, they do 
not have to watch people die in the same numbers. They do not 
have to watch kids' lives get shattered. There are tools that 
will make a difference.
    Do they require some costs and some considerations; of 
course they do. But I think as we translate resources and 
talked into real tools, real institutional change, real 
expectations of on institutions, then we get real change.
    Mr. Cummings. Just one other question, I did not agree very 
much with what Mr. Barr used to say. I do not think I ever 
agreed with 99 percent of it.
    But I did respect him for being concerned about the media 
campaign. I respected him for raising the issue with regard to 
Ogleby, and some of the things that we heard from sworn 
witnesses.
    I am just wondering, are you feeling pretty comfortable 
with the management of the media campaign? We have spent a lot 
of money. Are we getting the matches, in other words, the park 
where the media comes and helps us out by giving us a certain 
amount of time? How is that coming? What do you see as the 
future for the media campaign?
    Mr. Walters. I think the structure has improved 
dramatically, partly as a result of concerns that were 
expressed before I got there about the effectiveness and 
problems in the campaign that we reacted to.
    I think it was absolutely vital that we do testing of 
content before it goes on the air. In too many cases, we end up 
running ads that we were not sure were effective.
    I think we learned. It was a complex situation. I am not 
blaming my predecessors. They did what we all think is 
important.
    As I said, I think, earlier, we know advertising changes 
people's behavior. You know that in your work. We know that in 
business. We know that in other public health campaigns. We 
ought to be able to use that as a tool when we know that the 
cultural atmosphere and the knowledge of young people is so 
important in preventing this behavior.
    We ought to be able to get it right. I do not think the 
question is whether or not this can be an effective tool. The 
question is, can we manage it in a way that is an effective 
tool? That is why I have asked for some greater flexibility 
here.
    I am not happy that we took a cut in the campaign. While I 
do not deny that $150 million is a lot of money, and I have not 
been in Washington that long, I think that especially at this 
time, when we are beginning to see progress and we begin to see 
some improvement, I would like to be able to push behind that 
more aggressively.
    Now that was not possible for this year. We have requested 
$170 million for next year. I would like to get that, as well.
    But in terms of the management, I think, insofar as we have 
been able to have investigations and settlements with Ogleby on 
the management and over-billing, that we now have a system in 
place that will prevent that.
    I will point out that the system did work. I know some 
people think that it did not work. But the Government never 
paid a dime it should not have paid. In fact, the billing issue 
was screened and caught when the bills were submitted.
    That does not justify it, but it does say that people can 
have little greater confidence that the process that we have 
for making sure that people, when they ask for money from the 
Government and this program, was one where there was scrutiny 
and there was proper stewardship.
    Now I know the issue with Mr. Barr was, should the over-
billing by Ogleby have barred them from participating in the 
contract? As you know from our past discussions, the 
determination before I got there was that this was not a level 
of wrongdoing that allowed them to be barred.
    They made changes to their structure. We re-competed the 
contract. They won a re-competed contract, and they are now the 
contractor, and our working relationship with them has been 
very good. Obviously, we are vigilant, after the history that 
has happened. It does not help the program to have those kinds 
of problems, and we want to make sure they do not happen.
    Mr. Cummings. Right, because it goes to the very cynicism 
that you talked about.
    Mr. Walters. Yes.
    Mr. Cummings. I mean, people in my neighborhood were 
saying, well, they watch CSPAN. They say these guys are getting 
this money and they knew there were questions being raised, and 
then people start wondering where their tax dollars are going 
to. I am glad to hear that has improved, thank you.
    Mr. Walters. Thank you.
    Mr. Souder. Mr. Davis.
    Mr. Davis of Illinois. Well, thank you very much, Mr. 
Chairman.
    Mr. Walters, I am sure you did probably answer my question 
that I sort of raised during the opening comments. I was just 
thinking that I would like to be able to get in my car, leave 
home, drive to church, come back, have dinner, and not run into 
somebody on every other corner where I live, where I go to 
church, hollering, ``pills and thrills; crack and blow.''
    It is almost demoralizing, in a way, to encounter this 
every day; or for people in communities to encounter it every 
day, knowing that they are, in many instances, doing whatever 
it is that creatively they can think of to do, but yet, it is 
not working, seemingly.
    I mean, we have got a county jail, for example, that is 
over-crowded. It is built for about 10,000 people and there are 
about 12,000 there, which means there are almost 2,000 sleeping 
on the floor on mats and cots.
    All of the correctional facilities are over-crowded, and 
drug treatment programs are over-filled. There are waiting 
lists for people to get in, and people just kind of throw up 
their hands.
    As I mentioned, obviously law enforcement has a great deal 
to do with that component. Although law enforcement personnel 
drive by and they look.
    As a matter of fact, one of the worst experiences that I 
ever had was, one of the worst experiences that I ever had was 
one Sunday I was driving and a fellow hollered out, ``Do you 
want some dope, pills, whatever you want?''
    Another fellow with him says, ``Hey man, that is Danny 
Davis.'' The fellow said, ``I would not care who he is, if he 
got some money.'' He said, ``I will sell him whatever he needs 
or whatever he can pay for.'' [Laughter.]
    Can you think of any creative things that communities might 
be able to do, where this is pretty much the rule, as opposed 
to the exception?
    Mr. Walters. Yes, we have tried to address that, and we 
will continue to try to address that, by putting together some 
of the key pieces that we think have to be there.
    Now it has to be deployed in the community, and I agree 
with you that many times, the difficult thing is that people 
are demoralized. They have seen initiatives or Operation ``X'' 
or new program ``Y'' and the reality did not change, and if it 
changed at all, it was temporary. So they have lost confidence 
that there is effective leadership.
    We are going to try to work more thoroughly with those, 
especially in major cities of the United States. Because while 
we recognize it and the budget indicates it, we need more 
treatment.
    You are right. You said in your opening remarks that we 
need to do more to work with people who are in the criminal 
justice system in our jails, as well as those who are being 
released and those who come in.
    We have asked for more money for drug corps programs to do 
training, as well as to provide those treatment resources. We 
need more providers. We need better links. We need better 
quality, and we want to try to do that in a more systematic 
way. But ultimately, we want it to work in more cases.
    When prevention fails, we know we need to get to people 
earlier. One of the things that we have tried to do with this 
drug control strategy is put emphasis where it has not been 
before on intervention.
    Yes, we want to treat people in jails. But I know that 
while some people believe that the criminal justice system 
takes low level offenders, first time offenders, and sends them 
for long terms.
    By and large, we find when we go into communities that the 
problem is that lower level offenders come in, over and over 
and over again, and are kicked out of the system because of all 
the over-crowding and other costs that you referred to.
    Whereas, if we just used a fraction of the resources, when 
we assessed them on the way in and said, we can get you into a 
program that does intervention more effectively, we would have 
stopped people from being the guys on the corner, yelling out 
to you when they are 3 or 4 years down the line.
    In addition though, especially in Chicago today, Chicago 
has become a major distribution point because of the way the 
market is worked, as you know.
    We remain dedicated to making prevention and treatment 
work. But if we are going to allow the kinds of floods of drugs 
that happen today in too many cases to continue, we are going 
to have a much greater difficulty keeping people in recovery 
and getting people to not use, because they are going to walk 
by areas that are essentially de facto legalization.
    Open air markets, it is cheap, it is plentiful, and the 
fact is that the threat of enforcement is all too remote for an 
individual buy.
    We need to shrink that market. What we are proposing to do 
is, try to capitalize on the opportunities we have with some 
drugs in Colombia and Mexico.
    I think we have some promise here to make the struggling 
people in the community that are trying to keep people in 
recovery and are trying to make prevention reality, to make 
their circumstance more conducive to their work.
    But that does not mean that we do not have to treat people. 
We are going to have people that need treatment, and that does 
not mean we do not have all the domestic problems.
    Methamphetamine is made in the United States. Marijuana is 
grown in the United States. We have to worry about diversion of 
pills in the United States.
    But our goal is to say, there is not an opposition between 
those who want to do treatment and prevention and those who 
want to do law enforcement. In the communities where we make a 
difference, those people are partners. We are providing and 
stabilizing communities. We are getting people who are sick 
with the disease of addition into help, and we are not going to 
let young people's lives careen down a path until they get 
sicker and sicker.
    Now that will require not only supporting the people like 
we met at the Saver Foundation, who are dedicated despite the 
trouble that they see; but also to get more people to lend a 
hand. We need people to help stabilize communities and to get 
involved that have not been, either because they are 
discouraged or because they feel it is not their community.
    So that will require the help of you and people who have 
ties to the community. That is why, you know, we have tried to 
establish that relationship with more and more members, as well 
as people who have governmental and civic responsibility in 
communities.
    Because in some ways, we are also a lessor partner. We 
provide the smaller portion of the resources, as you know. So 
we want to try to show that we are supportive in the larger 
issue of where we are going; but also in the resources that we 
have.
    But we are humble enough and realistic enough to know, the 
people who do the job have to be tied to that practice and that 
common goal, as well. Otherwise, we do not get there.
    Mr. Davis of Illinois. I was just thinking that there are 
instances where, if individuals are convicted of a drug 
offense, they could actually be denied food stamps. I am trying 
to think comprehensively as we approach the problem.
    In terms of those kinds of actions, does your agency have 
any comment or policy responsibilities along those lines, in 
terms of what might be happening in such a way that is really 
not beneficial? You know, some of the policies outside the area 
necessarily of your work, but are part of the impact. Do you 
have any responsibility in those areas?
    Mr. Walters. Yes, we have some. As it gets more distant, it 
is something that we can act on or not act on, depending on 
either what we are aware of or where we think we can make a 
difference.
    We did act, shortly after I took office a year ago, on the 
effort to re-authorize welfare to support the effort to include 
treatment as an activity for which people would be eligible for 
benefits, if they were in needs of treatment services and were 
getting them. I think that is the kind of thing you are talking 
about, and we are pleased that was incorporated in the 
legislation.
    I think you are right. We can look at some of the other 
things that have maybe caused obstacles or problems for the 
effectiveness of other programs. As we go through it, we will 
try to do that and we will be happy to talk to you about the 
specifics that you have or others.
    We do not consider ourselves narrowly focused because of 
our authorization or our responsibilities. But I will tell you 
that not on all things have we obviously been as active on. We 
are trying to focus, but I will be happy to take on issues as 
they are of interest to you or other members.
    Mr. Davis of Illinois. Thank you very much, and thank you, 
Mr. Chairman. I really appreciate the thoroughness with which 
you approach this arena. Again, Mr. Chairman, I appreciate the 
diligence that you are using to pursue it. So I thank you very 
much.
    Mr. Souder. Thank you; you may want to followup. We can 
talk further, not at this hearing, but whether or not it would 
be useful, when legislation comes in front of Congress that has 
a drug policy impact, whether they would be required to get a 
statement from the Drug Czar's office on how they think that 
would affect drug use in the United States.
    It would be like we have talked about family impact 
statements. It would not be a full-blown environmental; but 
just that if there is legislation moving forth that impacts 
drug use, that ONDCP is consulted and some statement comes up 
of its potential impact.
    Mr. Walters. I will be happy to look at that.
    Mr. Souder. Mr. Bell.
    Mr. Bell. Thank you, Mr. Chairman.
    I just want to followup on a couple of things that we have 
talked about here today. You mentioned earlier about the 
possible benefit from the post-September 11th mind-set of young 
people. As I said, I really do hope that is the case, and that 
we are seeing a trend toward more seriousness and more serious 
consideration with these types of decisions.
    But I also think, in many respects, it has made your job, 
referring again to September 11th, that much harder. Because 
you live in a world where attention is dominated now by 
terrorism, our relationships with other countries, the 
possibility of war. Certainly, living and working in this 
environment drives home that point, because that is all you 
hear about.
    At the same time, we are living in a world where high 
school students are using heroin, cocaine, and crack cocaine. 
So you hear that and the seriousness of the problem is 
apparent. But it is very difficult to get people to focus on 
that.
    The one area where I think you still have a great 
opportunity is the criminal justice system, because they face 
it every day. You do not have to rely on the media and you do 
not have to rely on advertising to drive home the point with 
people who work in the court system. Having been a reporter 
that covered the courts, and having worked as an attorney and 
having seen the problem up close, I am well aware of that.
    I am curious, because you are sort of in a position to sit 
at 2,000 feet or 20,000 feet and look down on what is going on 
in our world in this regard. And when we talk about the 
criminal justice system, what are we seeing?
    Because for awhile, there was that mind-set that we are 
going to put everybody in prison. We are going to incarcerate 
everyone, whether they are possessing or selling; it makes no 
difference. If they are associated in any way, shape, or form 
with drugs, then we are going to put them behind bars.
    Then in recent years, from even some more conservative 
judges, I have started seeing in move in Texas toward looking 
at treatment programs. But then I hear from you today that 
treatment is regarded as somewhat of a step-child by many in 
the medical field.
    So where are we, in terms of the criminal justice system, 
and what are you all encouraging people in the court system to 
look at, as far as dealing with this problem?
    Mr. Walters. I agree with you, the criminal justice system 
is an enormously powerful tool for us on the treatment side. I 
think that drug courts and diversion programs have been 
received well, in many cases. I know there was initially some 
fighting about them, and there still is, in some areas. We have 
asked for more money, because we would like to extend them.
    There is no question that contrary to what some people 
believe, that the evidence suggests that coerced treatment 
works as well as non-coerced treatment.
    In fact, the ability of the criminal justice system, even 
in cases of publicly recognized figures, and there are a number 
of them who, because of their celebrity, their problems with 
substance abuse and the law are known.
    I do not know of a single one of those cases where people 
think, whatever they think about the celebrity involved, that 
person's health or even their being alive today would have been 
enhanced if they had not come in contact with the criminal 
justice system.
    I have been, as you probably have, to a number of diversion 
programs and drug corps programs. Many times you have some 
graduates working in the program to help others.
    Most of them will tell you, without any shred of irony or 
evasion, that they believe the day they were arrested that 
frequently led them to this was the luckiest day of their life, 
and that they were on a path that would have been one of 
destruction.
    Now we ought to use that knowledge in more places. One of 
the things that we are trying to do with the money in our 
treatment initiative is to allow the voices to expand services, 
including services in the criminal justice system.
    I will tell you, from what I see today, what we have in 
many places where there are drug courts, many more tell us, we 
wish we had the capacity to do this. We either do not have the 
services, we do not have the committed court structure. We want 
to get that information out to more places.
    Also, I think what we have seen is, we do not have the kind 
of information about monitoring. Those people who are skeptics 
still believe that, well, it looks good and people want it to 
work.
    So they are not rigorous about saying that people are 
failing, or that they are evading other kinds of punishment 
through this program, and it is not demonstrated. We want 
better data here and better programs provided.
    In addition, I have seen programs like those in New York, 
where it expands not only to juveniles, where we need to serve 
more people, given the promise of getting people younger, but 
also in terms of family court. New York, because of the 
resources it has, has a family court, which if any of you have 
not seen and are interested, I urge you.
    They are very proud of it, so they are willing to show you, 
where the reconciliation of parents with their children is a 
process that includes where those parents have substance abuse 
treatment and monitoring of treatment to make that happen.
    We have 80 percent of the estimate of the child abuse and 
endangerment cases in this country on basis of a parent or a 
guardian who is a substance abuser. You cannot talk about the 
child abuse and endangerment issue in the United States without 
talking about drugs and substance abuse.
    So this is a particularly promising way to come directly at 
that problem with the same kind of integration of services and 
monitoring of progress that you have in a drug court for simple 
criminal defendants. We would like to see that in more places.
    But it has to work. You know, drug courts and diversion 
programs and after-prison programs are like any other human 
endeavor. It can be done well or it can be done badly. I think 
both the integrity of the process, but also the ability to 
monitor the quality and to make improvements depends on the 
data and the public reporting.
    It has to be transparent. You have to see who is going in. 
You have to explain to people what the levels of severity are, 
and you have to tell them what the outcomes are. You have to 
show that there is an investment in value.
    If you have an expectation that the enterprise is valuable 
and makes a contribution, you ought to show that in the 
monitoring and in the explanation of the results. I think that 
programs can work, and if you do that, you will get more 
support and you will see more lives saved.
    I do think that we have to both deploy them and support 
them; but we also have to monitor them and encourage 
communities to say, you should expect to hear what has happened 
in your schools, in your health care system, in your criminal 
justice system, and in your drug courts, as a part of your 
criminal justice system.
    Mr. Bell. From a strategy and policy standpoint, and I am 
assuming that you travel to different parts of the Nation 
talking about this policy, is it the policy and the strategy of 
this administration to advocate that the court system look more 
toward these treatment programs, and to try to find ways to 
increase funding for those types of programs; or is it pretty 
much left to each local entity to just make up its mind?
    Then if they want to go along with this, lock them up and 
throw away the key type mentality, well, that is fine, too. It 
is just up to them.
    Mr. Walters. No, we are advocating the greater deployment 
of drug courts. We have asked for an increase in the funding to 
the program, and we are trying to encourage more people to use 
even the other treatment resources that are available more 
broadly for treatment in the criminal justice system.
    It works. It saves lives. It saves resources and, more 
importantly, there is a criminal need. We still have too many 
people who do not get services and, while I know the court's 
treatment is something that we all have some trouble with, 
because we would like, as a free people, to have people get 
help on their own.
    We have to recognize that as most people know from family 
or personal experience, a symptom of the disease of addiction 
is denial and evasion. It is not only the person suffering, but 
the people around them.
    So the criminal justice system is one way to overcome that 
denial. Many people get into treatment because they finally 
have a realization, with the help of a spouse or a family 
member or an employer, you have got a problem and you have got 
to go get help.
    But some people do not get that realization until they bump 
into the criminal justice system. But the criminal justice 
system, as you know, has a way of making that evasion 
impossible to sustain.
    So it is a matter of using that, and particularly with this 
disease, as an important part of the process of getting people 
to get the help they need.
    Mr. Bell. I have a couple of things just to wrap up. I know 
you would agree that the one way to ensure that a person never 
gets caught up in the drug culture is if they never start using 
drugs to begin with; the idea of prevention on the front end.
    In looking at the strategy, one of the prevention programs, 
the Safe and Drug-Free School Program, is being reduced or cut 
by more than $50 million. It would also appear that the 
Parents' Advisory Council on Youth Drug Abuse is being 
eliminated. I will wait for your response, but it would seem to 
be a good way to also work toward prevention. How do you 
explain those?
    Mr. Walters. We had a problem, as someone talked about a 
little bit earlier, with the measures of effectiveness for the 
Safe and Drug-Free Schools Program. We want to make it better, 
but we also want to move money where we have the most promising 
chance of results, when there is competition, as there 
obviously is, for resources.
    As I explained, some of the benefit we can get is also 
linked, although we are not scoring, as drug control. The 
Mentoring Program that the President announced for $100 million 
will go particularly to at-risk youth.
    As I said, we could have scored this under the old 
structure, but because of the broader management purpose that 
we had, we did not.
    Now can we use more resources in prevention, of course. We 
are asking for some resources in a number of categories. But 
those resources have to be deployed effectively.
    I will be candid with you, there are some great things 
going on in the schools that are being funded by the Safe and 
Drug-Free Schools Program. I have been to schools where they 
are hiring student assistants and coordinators where they are 
coordinating programs of prevention and community involvement.
    But generally speaking, the problem with this program is, 
it is too widely spread and not managed well enough. We want to 
manage it, and we need your help to do that.
    I know that everybody wants this to work. But the problem 
right now is that we do not have the information and we do not 
have the direction here to do that. We want to build that in, 
and under the environment that we face, some of the money went 
to some other things.
    But that is not to say we obviously do not care about 
prevention. We do, but caring about prevention and doing 
something effective are different things, and we want to do 
something effective, as well as care.
    Mr. Bell. Thank you very much, and thank you, Mr. Chairman.
    Mr. Souder. Could you also comment on the Parent Advisory 
Council?
    Mr. Walters. Oh, yes, this is a body that has not existed, 
I believe, if I am correct. It was passed into existence as a 
legal requirement or a legal existing entity, but it has not 
been populated.
    At this point, we are thinking, since we are not quite sure 
what the contribution would be, and in addition to what we are 
trying to do with community coalitions and what we are trying 
to do with the community coalition advisory body that is 
broader, that another body would make a substantial 
contribution.
    Obviously, we think parents are crucial. We spend half of 
our ad campaign trying to influence parents. So we spend a lot 
of time talking to parents, as well. So it is not intended to 
send a signal that we think parents are not important. But we 
are not quite sure what the additional contribution would be, 
outside of what we already have in advisory bodies that are 
broader and broader gauged.
    Now some people may feel that we need to start it and 
populate it to see its contribution. But at this point, it was 
not obvious to us that we were not getting a better overview 
from the community coalition inclusion of parents and others in 
the context where those institutions were being brought 
together. But I can understand if other people have different 
views.
    Mr. Souder. We are looking at taking that out of the mark 
of the bill. Because one of the big arguments that we get in 
Safe and Drug-Free Schools is that some schools may only get 
like $700. All they can do is pencils.
    If we have too many programs out there with which to stick 
little parts of dollars in, we cannot get it concentrated. But 
that is one of the things we need to talk about internally.
    Also, when we originally did the authorization of this 
bill, there were not community drug coalitions, which is 
supposed to be part of it. But we need to talk through the 
value of at least keep it as a paper organization, if not 
funded.
    We battled, since 1994. Safe and Drug-Free Schools has 
faced a potential zeroing out, every single time. We have to 
get the effectiveness levels up, and that is part of our 
challenge, as we draw this bill.
    Mr. Ruppersberger, thank you for joining us.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    First, as far as the at-risk school that we are talking 
about, I think probably one of the best preventative measures 
is to get to the children or the teenagers before they get into 
the addition mode.
    I think there are a lot of programs out there that are 
doing well and there are a lot that are not. I think our job 
collectively is to make sure that we prioritize on those 
programs that have worked, that we know will work, and to make 
sure that anyone managing those programs will be held 
accountable for their success.
    I will give you an example. In the jurisdiction where I 
came from, we had the Police Athletic League. It was a policy 
to put a Police Athletic League center in every precinct. There 
were 5,000 teenagers and some children who were off the streets 
as a result of that program.
    I think one of the ways though was to get some of the at-
risk youth into those programs where they felt that they would 
want to come to. As an example, in one area that was one of the 
jurisdictions where I came from that was a very difficult area, 
we gave karate and taught karate. So the tough guys would come 
in and they wanted to be a part of learning karate.
    Well, once they came in, they were hooked. They were taught 
values. They were taught how to use technology, and they also 
were taught leadership skills.
    I think that there are programs out there that work and do 
not work, and we do not have a lot of money. So we have to make 
sure, and I think we define and research and look at those 
programs in the different jurisdictions that will work.
    Congressman Cummings mentioned in some of the areas, and we 
all have this, I think, in our districts, some of the very 
wealthy private schools and probably some of the worst poverty 
schools that we have in our area. But it is all about reaching 
them earlier, and I think that is a real high priority that I 
would hope the administration would look for.
    Second, another question, I am going to go from the drugs 
to tobacco and alcohol. In 1997, the Clinton administration 
drafted legislation to re-authorize the Office of National Drug 
Control Policy. That draft proposal established explicitly 
ONDCP's responsibility to coordinate efforts to reduce under-
age use of alcohol and tobacco.
    Up until now, the tobacco money has been providing the 
funding. When this funding source stops, do you think that 
ONDCP should undertake efforts to discourage the use of tobacco 
through the media? That is one question. The other question is, 
does ONDCP have any role to play in discouraging under-age use 
of tobacco or use of tobacco, in general?
    Mr. Walters. The prevention programs that we support and 
the research that we do covers substance abuse and includes 
tobacco and alcohol, as well as illegal drugs, for minors, 
because they are illegal substances for minors.
    The advertising campaign does not do separate ads on 
tobacco. As you mentioned, there is large advertising as a part 
of the settlement that does tobacco ads. So we have not 
duplicated that effort.
    In regard to alcohol, our media match is estimated to be 
some $30 million that goes to anti-alcohol ads for youths. We 
are the largest funder of anti-alcohol advertising, I believe, 
in the country for youth at this time.
    So in the current environment now, I would look at it. If 
the settlement, in regard to the tobacco company, changes the 
availability of advertisement for tobacco products for young 
people, that is something we should look at. But at this point, 
we have not, just because there is a large campaign that has a 
lot of money behind it that is intended to focus on that.
    Mr. Ruppersberger. I have one other comment. Congressman 
Cummings, I think, at the last hearing you attended, commented 
on the comments you made at the funeral in Baltimore.
    That was a horrible tragedy. It was tragedy that resonated 
throughout our entire community, where the family was really 
burned to death as a result of the mother and father going 
actively against the drug dealers and standing up and 
attempting to work with the police, and you were there on 
behalf of the President.
    I think sometimes you can always remember. You can never 
forget, and if you need inspiration, to continue on with the 
things that we are doing and talking about here today, your 
comments at that funeral, and they were excellent. I will 
always remember you and those comments.
    Mr. Walters. Thank you.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Just following up on what Congressman 
Ruppersberger just said, just going back to that whole issue, 
Director, with regard to protecting witnesses, that is 
something that is very near and dear to me.
    As I have explained to you before, we see a lot in our 
area, in the Baltimore area, where witnesses feel intimidated. 
They are often threatened.
    The Dawson case, which Mr. Ruppersberger referred to, of 
course, was a case where the husband, the wife, and five 
children were fire bombed by a young man who was allegedly 
dealing drugs in their area. He allegedly found out that they 
were working with the police, and he had threatened them many 
times.
    The next thing you know, at 2 a.m., he busts the door open 
and throws a Molotov cocktail in the house, and they literally 
burned to death.
    I think when we are dealing with addressing the drug 
problem, we not only have to deal with treatment and prevention 
and interdiction, but we have got to deal with this crime side. 
I think that we need to do more in that area of trying to make 
sure that witnesses are protected.
    We go out, and all elected officials, I would guess, go out 
and literally beg people to cooperate with the police, because 
we realize that most crimes are going to be solved, with the 
cooperation of the public.
    Then when the public feels that they are going to be 
harmed, and not just harmed but killed, it sends a very 
chilling message. So what happens is, it is so chilling, that 
you can end up with a situation where nobody wants to 
cooperate.
    So I am just wondering, with the emphasis now having been 
placed on the war on terrorism, and I think we definitely need 
to be about that, whether you still see our focus as being on 
drugs in our neighborhoods?
    The Chairman and I had a great concern about that when we 
were passing the Homeland Security Bill, for example. We were 
concerned that emphasis would be taken away, and then people 
dealing these drugs would be saying, OK, we have got a field 
day coming up here.
    So we made sure that there was somebody placed in the 
administration of Homeland Security to make sure they stayed on 
top of the drug efforts. So taking all that into consideration, 
where are you on all of that, and how has Homeland Security 
affected what you do, the new department?
    Mr. Walters. Yes, I was initially more concerned than has 
been proven, I think, to be necessary to me, at least, in the 
last several months; not just because I have gotten to know 
some of the people in the administration.
    But I think the direction that we see the terror threat 
going is a direction that is not at odds with what we are doing 
with drugs, but is more in coincidence with it, for a couple of 
reasons.
    One, we know that the needle in the haystack problem that 
we face with regard to detecting, monitoring, collecting, and 
analyzing information about terror, not only goes from abroad, 
but goes to our own streets and neighborhoods; and that the 
effort that we are working with Governor Ridge on to provide 
information sharing and collection actually drives more 
attention at the national level and understanding to support 
local law enforcement.
    Now it will take a little time to do this. But I do not 
think it is a matter of, do not do drugs; let us do terror, as 
much as a better understanding and a better deployment of 
resources.
    In addition, I believe that the tools that we have gotten 
in regard to some of the money and in regard to some of the 
ability to do some surveillance are important for a certain 
level of the trafficking problem. It is probably not as 
relevant to street-level enforcement, but it is more important 
in terms of the larger parts of the business that we need to do 
more damage to.
    I certainly agree with you that we have to protect 
witnesses, and we also have to expect that witnesses are going 
to continue to be threatened.
    I believe that if you look at this problem in the clearest 
terms, the drug problem has to involve terror and intimation. 
Why; because the business is based on initiating children to 
dangerous, addictive substances, and to providing them to 
people who are dependent and addicted. No civilized society can 
tolerate that, because you cease to be civilized when you do 
that over any period of time.
    So that business must cause intimidation on the 
institutions that would shrink it. It has to drive people out 
of their neighborhoods if they resist. It has to intimidate or 
kill them when they try to provide pressure to stop the 
business.
    And particularly, you are right. I think anybody that looks 
at this issue, when people stand up to those who would sell 
this poison and they are cut down, the community and the Nation 
has to say, that will not and must not stand. Otherwise, we 
have lost. We have lost the ability to provide lawful order and 
security to people. We have lost the ability to protect our 
children.
    On a personal note, as you know, it is impossible too tell 
somebody you were there and what it is like to watch a funeral 
with five small caskets.
    It is a tragedy when one child dies. When an entire family 
is wiped out, the magnitude of the suffering of the family and 
the community, no human being can witness what we witnessed and 
not understand what is at stake and what is going on in other 
places around the country.
    If we cannot do this, if we cannot keep faith with the 
Dawson family and the people in their neighborhood, we are not 
keeping faith with people who are going to give their lives 
today to secure this country.
    I tell that to young people when I talk to them. I actually 
tell the story of the Dawson family to more schools than not 
that I visit.
    I also tell them, if you do not have any other reason to be 
responsible, what kind of sap goes and gives his life for your 
future, and you decide to throw it away by using drugs or 
giving them to your friends? That is idiotic.
    You have a responsibility, even if you think this is cute, 
to grow up. If you want to be an adult, be an adult. Stand up, 
when somebody tells you, this is fun and they want to put 
pressure on you to not be the heavy handed one. Tell them what 
the real reality is here. That is being an adult.
    It does not take anything to just look the other way or 
just do what everybody else does in these situations. Because 
something is at stake here, and what is at stake here is the 
credibility and the link that we have to people who suffer, and 
the credibility and the link we have to people who every day 
think beyond themselves for us.
    I think not every kid, but a lot of kids see that and 
understand that link. We need more of them being vocal. But we 
also have to support the people who stand up, because they are 
under real pressure.
    You know, it is not just a matter of being embarrassed in 
front of your peers. It is getting killed and getting your 
family killed, or leaving your neighborhood if you do not want 
to face that destruction.
    Nobody should have to face what the Dawsons faced. That is 
obvious. But they also should not have to face the choice of 
leaving their neighborhood, or accepting what happens on the 
street corner, as Mr. Davis was saying, if they want to survive 
or they want to continue to live there.
    That is just not acceptable, and that is when we really 
give in to cynicism when we say, well, that is just the way our 
neighborhood or our world is going to work.
    I agree with you, it is not just inner city neighborhoods. 
I think the biggest drug problems I see are in affluent 
schools. That is because, I believe that even there, parents 
and people in the community are looking the other way or 
believe we cannot do anything about this.
    I have as much trouble changing their minds, because they 
are not people who feel that society makes them powerless. They 
are powerful.
    Mr. Cummings. I think the word that we have to continue to 
preach is what you ended up with there; that people do have to 
stand up. That is why I asked the question about protecting 
witnesses.
    Because if you look at the neighborhoods that do not have 
those problems, at least not to the naked eye, people have 
stood up. They have made it very clear that they are just going 
to tolerate it. They may not always feel comfortable doing it, 
standing up, but they do it.
    I think we, as a government, have to try to provide the 
resources to make sure that they are able to stand up, and at 
the same time, not be harmed in the process of doing it.
    So as I told you before, we have got a piece of legislation 
coming down the pike and I hope you will take a look it.
    Mr. Walters. Yes, sir, thank you.
    Mr. Souder. I want to thank all the Members for their 
participation today. To say I ran a liberal clock would be to 
understate it. It was my liberal day for the year in more ways 
than one, probably.
    But I felt it was important and it was an unusual 
opportunity to have an extended discussion. We are clearly 
trying to do a bipartisan bill here, working with the re-
authorizing.
    I would like to say for the record on drug testing, that at 
least the way I have always seen it when we first initiated 
this in 1989 under Drug-Free Schools as an allowable use, is 
that it was not a criminal enforcement.
    In other words, when a student or others get tested for 
that, the goal is to get them help to identify it and see what 
to do. It would not be to add more people into the criminal 
justice system, and it would not be in the long-term record.
    With that, we thank you for your participation today and 
for your patience with it, and our hearing stands adjourned.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T7417.027
    
    [GRAPHIC] [TIFF OMITTED] T7417.028
    
                                   - 

</pre></body></html>
